      ICE OF INSPECTOR GE
    FF                   NE
                           RA

O
                             L

 U.
     .D
    S

          EP
            AR
              TM
                   E NT
                          OF CO M M E R C E




Semiannual
   Report
to Congress



          March 2003
March 2003

The Honorable Donald L. Evans
Secretary of Commerce
Washington, D.C. 20230


Dear Mr. Secretary:

I am pleased to provide you with the Inspector General’s Semiannual Report to Congress for the first half of fiscal year 2003.
Section 5 of the Inspector General Act requires that you transmit this report, with any comments you may wish to add, to the
appropriate committees within 30 days of your receiving it.

Once again during these past months, Commerce’s involvement in support of a range of national priorities—from assisting
with recovery efforts for the Columbia shuttle and crew to providing vital weather information to our troops overseas—has
underscored the great diversity and importance of this agency. We in the Office of Inspector General have done our part to
ensure that the Department is well positioned to effectively handle its many roles. We note the strides it has made in addressing
the challenges my office has determined to be most pressing and have provided recommendations for areas where more work
is needed.

Our emphasis on high performance mirrors the expectations of both Congress and the administration and has prompted their
ever-increasing scrutiny of the management and cost-effectiveness of Commerce programs and operations. We commend the
Department for having fared well in the Office of Management and Budget’s first use of the Program Rating Assessment Tool
to inform FY 2004 budget decisions: Commerce demonstrated results for 8 of 10 programs evaluated, and none of the 8 was
found to be ineffective. Our own performance assessments—which tend to probe more deeply—have also found successes
but have raised questions about the reliability of some measures and, by extension, about related performance reporting. To
ensure the validity of performance data, we believe this area requires continuing, careful attention from both our office and
senior Commerce officials.

We believe the work of our office detailed in this semiannual report further supports your efforts to eliminate inefficiencies in
management, programs, and operations. We look forward to assisting you and your senior managers in implementing changes
we recommend and to keeping you apprised of the outcomes of those efforts.

Sincerely,




Johnnie Frazier
CONTENTS
IG’s Message to Congress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii


Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
      Strengthen Financial Management Controls and Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
      Strengthen Department-Wide Information Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
      Enhance Export Controls for Dual-Use Commodities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
      Effectively Manage Departmental and Bureau Acquisition Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5
      Enhance Emergency Preparedness, Safety, and Security of Commerce Facilities and Personnel . . . . . . . . . . . . . . . . . . . . . . . . .6
      Successfully Operate USPTO as a Performance-Based Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7
      Increase International Compliance with Trade Agreements and Expand Market Access for American Exporters . . . . . . . . . . . . .7
      Increase the Effectiveness of Marine Resource Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
      Continue to Improve the Department’s Strategic Planning and Performance Measurement in Accordance with GPRA . . . . . . . .9
      Effectively Manage Major Commerce Renovation and Construction Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10


Department of Commerce Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11


Agency Overviews
      Bureau of Industry and Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12
      Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .16
      International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
      National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
      Technology Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .28
      United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31
      Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32


Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .38
      Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39
      Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42
      Tables and Appendixes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .44


Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .51




March 2003/Semiannual Report to Congress                                                                                                                                                      v
IG’S MESSAGE TO CONGRESS

                                                                      performed by either state auditors or certified public accounting

E
       vents of this semiannual period have again highlighted the
       Department of Commerce’s very visible role in the affairs      firms (CPAs), are intended to identify financial management and
       of our nation, the widespread reach of its activities, and     reporting weaknesses in a recipient’s administration of federal
the imperative for the sound, reliable conduct of its operations.     funds. We chose five CPA audits of organizations operating EDA
The work of the Office of Inspector General during these months       revolving loan funds and two audits involving NIST funding. We
has supported that imperative, as we have evaluated many of the       found that five of the seven audits were substandard and two
Department’s critical functions and pointed out, where                were technically deficient, in that they did not meet the federal
warranted, needed improvements.                                       government’s guidelines as detailed by the Office of
                                                                      Management and Budget (OMB). Depending on the nature of
National security has remained a foremost concern, as conflict        our findings, we either required the firms to conduct additional
and tensions abroad have renewed fears of terrorist repercussions     work on the audit we reviewed, to correct and reissue the related
here at home. The Department of Commerce plays a significant          reports, or to submit subsequent audits to us for evaluation—
role in advancing the nation’s efforts to thwart such activity, and   before issuing them—so that we can ensure they comply with
we have looked closely at its efforts in this regard. Together with   OMB requirements. In addition EDA has instituted procedures to
the inspectors general of the departments of Defense, State, and      ensure that its regional offices, officials, and RLF operators are
Energy, and in consultation with the CIA and FBI, this office is      fully aware of OMB’s auditing guidelines.
responsible for reporting annually on the adequacy of export
controls and counterintelligence measures aimed at preventing         The public rightfully demands assurance that it can rely on the
countries and entities of concern from acquiring sensitive U.S.       capabilities and integrity of these CPAs who audit the vast majority
technology and technical information, including weapons of mass       of Commerce and other federal financial assistance recipients. Our
destruction. In addition to participating in an interagency review,   efforts to monitor this work serve not only the interests of the
we assessed activities of the Bureau of Industry and Security         Department, but also those of all taxpaying citizens.
(BIS), Commerce’s primary agency involved in the export control
process, and found a number of weaknesses in BIS’ operations and      We also conducted audits of eight EDA (page 16) and three NIST
system for enforcing controls (see page 12) and in its methods for    (page 28) financial assistance awards that resulted in our
overseeing and tracking firearms use and inventory (see page 14).     questioning more than $6.7 million in claimed costs and
                                                                      recommending that more than $14 million be put to better use.
Financial soundness and accountability provide the foundation
for proficient operations, and this area, too, has received much of   Performance measurement continues to require departmental
our scrutiny. We are pleased to report that Commerce’s FY 2002        attention, as the government moves toward using performance
consolidated financial statements—which were audited during           data to make funding decisions. Although we believe the
this semiannual period—received an unqualified (clean) opinion        Department has made progress toward meeting the challenge of
for the fourth year in a row (see page 33). The auditors found that   how best to plan and measure its performance, our series of
the Department had successfully resolved most of the financial        audits in this area indicates that significant opportunities for
management and reporting weaknesses noted in last year’s audit        improvement remain. Commerce must implement procedures to,
and had made significant progress in implementing the                 among other things, ensure that (1) reported information is
Commerce Administrative Management System (CAMS). The                 reconciled against supporting data and (2) only data from the
Department maintains its focus on strengthening financial             appropriate time period is included in performance results. These
management by implementing CAMS both to comply with                   issues have emerged time and again in our evaluations of
federal laws for a single, integrated financial management system     performance measures, most recently in that of selected measures
and to generate accurate, timely, and reliable financial              used by NOAA. We are concerned that—for the measures we
management and performance information.                               evaluated—NOAA still needs to (1) improve internal controls,
                                                                      (2) restate data that was incorrectly reported in the past, (3)
In line with our emphasis on financial accountability, we             provide additional disclosures and explanations of performance
conducted quality control reviews of selected audits of recipients    results, and (4) assess the value of certain measures to determine
of Commerce financial assistance (page 35). These audits,             whether they should be dropped or revised (see page 24). We also




March 2003/Semiannual Report to Congress                                                                                             vii
IG’s Message to Congress



found problems with the export success performance data
reported by the US&FCS post in Turkey (see page 19). We will
continue to evaluate performance measurement and reporting at
Commerce bureaus and, as warranted, make recommendations
regarding the accuracy, appropriateness, reliability, and
                                                                     I am pleased to say that this same spirit of cooperation has
                                                                       marked much of our interaction with the Department during
                                                                     this semiannual period, as Commerce managers and staff have
usefulness of performance data.                                      been generally open and responsive to addressing the findings
                                                                     and recommendations we have made.
Management and internal control weaknesses in varying
degrees of severity perhaps are the most pervasive problems we       Further, we appreciate the interest shown by Congress in the
noted in departmental programs and operations, as evidenced in       work we have done, for your attention facilitates the process of
the following sample of our other recent work:                       improvement. During this past reporting period, we have had
    ■   NOAA’s Corporate Costs NOAA, with its five line              numerous opportunities to brief you on our work in such diverse
        offices and varied and complex set of program responsi-      areas as export controls and procurement; follow up on concerns
        bilities, is the largest agency in Commerce. To manage       you have expressed regarding fishery management, government
        the line offices and the many constituent divisions,         employee improprieties, and a range of other issues; and respond
        NOAA has centralized much of the administrative work.        to requests for reports and information about Commerce
        "Corporate costs" refers to expenses associated with cen-    financial assistance awards. We will continue to keep you
        tral executive management, administrative support, and       apprised of the Department’s performance in the full range of
        policy setting. We conducted a performance audit to          critical activities in which it is involved, with confidence that
        assess the process and practices NOAA used to develop        each issue resolved will strengthen Commerce operations and
        and administer its corporate-costs budget for FYs 2000       enhance its service to the public.
        and 2001. The audit identified numerous matters related
        to the policies, procedures, and cost-assessment methods
        that warrant management’s attention (see page 21).
    ■   National Marine Fisheries Service’s Enforcement
        of Regulations NMFS’ Office for Law Enforcement
        (OLE) and the U.S. Coast Guard share responsibility for
        enforcing federal fishery regulations that result from the
        fishery management council process. While the Coast
        Guard primarily handles enforcement at sea, OLE focus-
        es on shoreside enforcement, which includes dockside
        monitoring and investigative work. Our findings suggest
        that by taking a more proactive approach, OLE could
        help make fishing management measures more under-
        standable and enforceable and improve federal fisheries
        enforcement (see page 25).
    ■   Travel Card and Purchase Card Weaknesses Our
        work at the National Weather Service (see page 23) and
        the Office of the Secretary (see page 32) revealed that
        stronger management controls would eliminate deficien-
        cies and greatly improve compliance with both
        Department and government-wide guidelines on the use
        of these cards.

Investigations of suspected fraud and other illegalities have
rounded out our audit and inspection work during these past
months, as we have uncovered various instances of fraudulent
activity involving Commerce funds and programs and have
followed the cases through to resolution with consistently
positive results (see page 39). We have also successfully
collaborated with the FBI and other law enforcement groups on
several investigative operations (see page 41).




viii                                                                            U.S. Department of Commerce/Office of Inspector General
MAJOR CHALLENGES
FOR THE DEPARTMENT

                                                                    CHALLENGE 1: STRENGTHEN
A
         t the close of this semiannual period the Top 10
         Management Challenges the Department faces, as
         determined by OIG, comprise issues that (1) are            FINANCIAL MANAGEMENT
important to the Department’s mission or the nation’s well-being,   CONTROLS AND SYSTEMS
(2) are complex, (3) involve sizable expenditures, or (4) require
significant management improvements. Given the diverse nature       The Chief Financial Officers Act of 1990, the Government
of Commerce activities, many of these issues cut across bureau      Performance and Results Act of 1993, the Government
and program lines. We believe that by addressing these              Management Reform Act of 1994, and the Federal Financial
challenges the Department can enhance program efficiency and        Management Improvement Act of 1996 were designed to
effectiveness; eliminate serious operational problems; decrease     improve financial management and accountability in the federal
fraud, waste, and abuse; and achieve substantial savings.           government.      These statutes require the preparation of
                                                                    information needed by Congress, agency executives, and the
                                                                    public to assess management’s performance and stewardship of
                                                                    federal programs and operations. Required information includes
  TOP 10 MANAGEMENT                                                 the findings of audits of agency financial statements, which
  CHALLENGES                                                        present the entity’s financial position and results of operations.
                                                                    Among other things, these audits must determine whether an
   1. Strengthen financial management controls and systems.         agency’s financial management systems comply with federal
                                                                    requirements.
   2. Strengthen Department-wide information security.
                                                                    Independent nonfederal auditors gave the Department an
   3. Enhance export controls for dual-use commodities.
                                                                    unqualified (clean) opinion on its FY 2002 consolidated financial
   4. Effectively manage departmental and bureau                    statements—the fourth consecutive year for this accomplishment
      acquisition processes.                                        despite continuing obstacles, including the absence of a single,
                                                                    integrated financial management system. In FY 2002 the
   5. Enhance emergency preparedness, safety, and security          Department was successful in resolving most of the financial
      of Commerce facilities and personnel.                         management and reporting weaknesses noted in the previous
   6. Successfully operate the U.S. Patent and Trademark            year’s audit. Also it made significant progress in implementing
      Office as a performance-based organization.                   the Commerce Administrative Management System (CAMS).

   7. Increase international compliance with trade agree-           CAMS is a software package based on a commercial off-the-shelf
      ments and expand market access for American                   accounting system application that has been extensively modified
      exporters.                                                    and substantially augmented with new capabilities to support
                                                                    departmental accounting and financial management needs as well
   8. Increase the effectiveness of marine resource                 as individual Commerce unit requirements. Census, NIST, and
      management.
                                                                    NOAA have already begun using CAMS as their financial system
   9. Continue to improve the Department’s strategic plan-          of record; NOAA used CAMS to close out and report for the first
      ning and performance measurement in accordance                time its FY 2002 financial data. When fully deployed in 2003
      with the Government Performance and Results Act.              CAMS will be the single system of record; NOAA used CAMS
                                                                    to close out and report for the first time its FY 2002 financial
  10. Effectively manage major Commerce renovation and              data. When fully deployed in 2003 CAMS will be the single
      construction projects.                                        system of record for Census, NIST, NOAA, and eight of the
                                                                    Department’s operating units whose accounting functions are
                                                                    handled by either NIST or NOAA. The units serviced by NIST
                                                                    are the Bureau of Economic Analysis, Economic Development
                                                                    Administration, Economics and Statistics Administration (ESA),




March 2003/Semiannual Report to Congress                                                                                           1
Major Challenges for the Department



Minority     Business   Development Agency,         National                       CHALLENGE 2: STRENGTHEN
Telecommunications and Information Administration,
Technology Administration, Office of the Secretary, Office of                      DEPARTMENT-WIDE
Computer Services, and Office of Inspector General. NOAA                           INFORMATION SECURITY
services BIS.
                                                                                   The security of Department of Commerce information
The Department as a whole has made substantial improvements                        technology systems and data is important to not only the
in financial management; nonetheless, maintaining a clean audit                    Department but also the entire nation: BIS’ export license data
opinion remains a major challenge, especially under the                            helps control the release of dual-use commodities to countries
accelerated financial reporting dates mandated by the Office of                    and entities of concern; NOAA’s satellite, radar, and weather
Management and Budget (OMB). The audit of the Department’s                         forecasting data and systems provide information used to protect
FY 2002 statements identified two reportable conditions (one of                    lives and property; ESA’s economic indicators have policy-
which is considered a material weakness1) and several instances                    making implications that can affect the movement of global
of noncompliance with laws and regulations, all of which are                       commodity and financial markets; and USPTO’s patent and
repeat findings (see page 34). Further improvements in financial                   trademark information is essential to administering patent and
management systems and operations are essential to enabling the                    trademark law, promoting industrial and technical progress, and
Department and its entities to correct the material weakness and                   strengthening the national economy.
other deficiencies identified in the audit of FY 2002 statements
and to produce timely, useful financial information.                               Loss of or serious damage to any one of Commerce’s critical
                                                                                   systems could have devastating impacts; nevertheless,
The Department recognizes the need for a financial management                      weaknesses in IT persist throughout Commerce. Thus,
environment in which the reliability of financial and performance                  identifying those weaknesses and recommending solutions
information and compliance with federal laws and regulations are                   continue to be top priorities for the Office of Inspector General.
assured.    Therefore, Commerce continues to focus on
strengthening its financial management systems by implementing                     In December 2002 the Government Information Security Reform
CAMS, both to comply with federal laws and regulations and to                      Act (GISRA) was replaced by the Federal Information Security
provide Commerce with accurate, timely, and reliable financial                     Management Act (FISMA) of 2002. Like its predecessor, FISMA
management and performance information.                                            continues the requirements that each federal agency review its
                                                                                   information security program annually and that each OIG
Full implementation of CAMS, completely replacing                                  perform an annual independent evaluation of that program.
Commerce’s outdated and fragmented systems, is expected by                         Agency heads must continue to provide both of these
October 2003. Although most of the Department’s operating                          assessments to OMB; under FISMA, however, they are also
units will use CAMS, three will not—International Trade                            required to provide the assessments to Congress.
Administration, U.S. Patent and Trademark Office, and National
Technical Information Service. Those bureaus will submit data,                     The Department, continuing to focus on information security,
along with other units, into a Commerce-wide database that                         recently issued two new policies—Information Technology
serves as the source for the Department’s consolidated financial                   Program Policy and Minimum Implementation Standards and
reports. The Department expects that CAMS, in conjunction                          Policy and Implementation Standards for Remote Access
with the database, will bring Commerce into compliance with                        Security—to enhance its IT security foundation. These policy
federal financial systems requirements, including that for a                       directives provide comprehensive rules and practices for
single, integrated financial management system.                                    protecting departmental systems and data. In addition the
                                                                                   program policy establishes clear and specific requirements for
                                                                                   accrediting departmental systems—accreditation being
                                                                                   management’s formal authorization to operate a system,
                                                                                   including its explicit acceptance of risk.

                                                                                   As we reported in our last semiannual, most of the Department’s
                                                                                   operational systems have not been accredited; for those that have
                                                                                   been, evidence of the requisite security testing and evaluation is
                                                                                   frequently lacking, thus diminishing the assurance that
1
                                                                                   accreditation is intended to impart. We reassert our position that
 Material weaknesses are serious flaws in the design or operation of an internal
control component that increase the risk that errors, fraud, or noncompliance in   the Department should continue to monitor systems
material amounts may occur and not be readily detected.                            implementation Commerce-wide to ensure that all have




2                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                          Major Challenges for the Department



approved security plans and are put through rigorous                      CHALLENGE 3: ENHANCE
certification and accreditation processes, as specified by the new
program policy.                                                           EXPORT CONTROLS FOR
                                                                          DUAL-USE COMMODITIES
In its last two Accountability Reports, the Department reported
information security as a material weakness. Until systems that           The adequacy of export controls is a continuing concern.
are part of the nation’s critical infrastructure, as well as those that   Opinions vary on how well the government’s export control
are mission critical, have been accredited, we believe that               policies and practices balance the need to protect U.S. national
information security at the Department should continue to be              security and foreign policy interests with the desire to promote
reported as a material weakness.                                          U.S. trade opportunities and competitiveness. Striking this
                                                                          balance is a significant challenge for the parties involved,
                                                                          particularly for Commerce’s Bureau of Industry and Security,
SEPARATE INFORMATION SECURITY                                             which oversees the federal government’s export licensing and
REVIEW FOR USPTO                                                          enforcement system for dual-use commodities (goods and
                                                                          technologies that have both civilian and military uses).
As a performance-based organization, USPTO has conducted its              Strengthening dual-use export licensing and enforcement
own information security review and submitted its report                  requires new, comprehensive legislative authority to replace the
separately from the Department. OIG therefore has conducted a             expired Export Administration Act of 1979 and appropriately
separate assessment of USPTO.                                             address current export control needs and realities. Passed during
                                                                          the Cold War, the act sought to prevent the export of critical
As part of our FISMA evaluation for this fiscal year, we will again       goods and technologies to Communist bloc countries. In today’s
assess USPTO’s progress in improving its information security             political climate, hostile countries and terrorist groups seeking
organization and the measures it has taken to address the system          weapons of mass destruction and the systems to deliver them
security weaknesses we identified in our 2002 evaluations.                pose new threats to global security and U.S. foreign policy goals.
                                                                          Legislation is needed to address these threats, as well as to bolster
                                                                          BIS’ regulatory authority, stiffen penalties for violations, and
CONTRACT SECURITY WEAKNESSES                                              demonstrate America’s commitment to maintaining strong export
                                                                          controls while encouraging other countries to do the same.
As we reported in our September 2002 semiannual report,
provisions to safeguard the security of sensitive but unclassified        Given the importance of export controls to national security, we
systems and information were either insufficient or nonexistent           have devoted considerable attention to the challenges facing BIS.
in Department IT service contracts. We recommended that the               The National Defense Authorization Act (NDAA) for Fiscal Year
Department (including USPTO) establish standard contract                  2000, as amended, directed the inspectors general of the
provisions to effectively protect the security of unclassified            Departments of Commerce, Defense, Energy, and State, in
systems and disseminate a clear, detailed policy for acquiring            consultation with the directors of the Central Intelligence Agency
these systems and services. We further recommended that the               and the FBI, to report to Congress by March 31, 2000, and
Department determine whether current contracts need to be                 annually until the year 2007, on the adequacy of export controls
modified to include information security provisions, recognizing          and counterintelligence measures to prevent the acquisition of
that in some cases contract costs could increase as a result of           sensitive U.S. technology and technical information by countries
such changes.                                                             and entities of concern. In addition, the NDAA for FY 2001
                                                                          requires the IGs to discuss in their annual interagency report the
The Department is in the process of implementing our                      status or disposition of recommendations made in earlier reports
recommendations. Contract provisions have been written and are            submitted in accordance with the act. To date, we have completed
now undergoing departmental review. After the provisions are              four reviews of export controls in compliance with the act as well
approved, Commerce plans to facilitate their implementation by            as three separate follow-up reports. Together with the other IGs,
providing appropriate training to acquisition staff. An                   we have also issued four interagency reports on export controls.
assessment of current contracts found that more than 350 need
modification to address the new security provisions. The
Department is working to ensure that all future contracts include         ENFORCEMENT OF DUAL-USE
appropriate security provisions before being awarded.                     EXPORT CONTROLS

                                                                          During the current reporting period we completed a review of
                                                                          BIS’ export enforcement program, including its efforts to prevent
                                                                          the illegal export or diversion of dual-use items and investigate



March 2003/Semiannual Report to Congress                                                                                                    3
Major Challenges for the Department



Federal Agencies Participating in the Dual-Use Licensing Program




and assist in the prosecution of violators of Export                             dual-use export transactions controlled by BIS. According to
Administration Regulations. To be effective, export controls must                BIS, efforts to address these issues are already under way.
be enforced, and companies or individuals who conspire to evade
those controls or illegally divert exports must be detected and                  In addition to our assessment of Commerce’s enforcement
prosecuted accordingly. Our report highlights weaknesses in                      program, the interagency OIG review team (composed of
Export Enforcement’s investigative process and outlines specific                 Commerce, Defense, State, and the CIA) completed a cross-
issues that negatively impact the organization’s ability to achieve              cutting review of the adequacy and effectiveness of the U.S.
its mission. To address those issues we recommended (1)                          government’s efforts to enforce controls on export of both dual-
stronger management oversight of the investigative process and                   use items and munitions. Due to the nature of the review topic,
cases, (2) better coordination between Export Enforcement and                    both the Treasury and U.S. Postal Service OIGs participated in
Export Administration as well as with other federal law                          this year’s assessment. The interagency OIG report was issued in
enforcement and intelligence agencies (including the U.S.                        early April 2003.
Customs Service,2 the FBI, U.S. Attorney Offices, the CIA, and
U.S. Postal Service), (3) better monitoring of license conditions,
(4) strategically planned outreach efforts to U.S. exporters, and                FOCUSED PRIORITIES
(5) better end-use checks to attempt to verify the legitimacy of
                                                                                 The challenges for BIS, as well as for the administration and
                                                                                 Congress, remain (1) passing a new Export Administration Act,
2
 On March 1, 2003, the Bureau of Customs and Border Protection (CBP)             (2) targeting federal licensing and enforcement efforts on exports
became an official agency of the Department of Homeland Security, combining      that present the greatest proliferation and national security risks,
employees from the Department of Agriculture, the Immigration and
Naturalization Service, the Border Patrol, and the U.S. Customs Service.
                                                                                 and (3) streamlining or eliminating controls that unnecessarily
Customs Service is used in this report because the transition took place after   hamper trade and do not augment national security or foreign
our reporting period.                                                            policy concerns. We will continue to monitor BIS’ efforts to



4                                                                                            U.S. Department of Commerce/Office of Inspector General
                                                                                                   Major Challenges for the Department



improve dual-use export controls through the annual reviews          problems with the use of performance-based service contracting:
required by the National Defense Authorization Act.                  specifically, failure to use performance-based task orders where
                                                                     they would be beneficial; insufficient planning for contract
                                                                     administration and monitoring; and the need for increased
                                                                     training of contracting officers/technical representatives
                                                                     (COTRs). We have also become increasingly aware of the need
CHALLENGE 4: EFFECTIVELY                                             to conduct more audits of individual contracts to ensure that
MANAGE DEPARTMENTAL                                                  services and products provided under contract are cost-effective.
AND BUREAU ACQUISITION
                                                                     Last semiannual period, we completed a review of IT service
PROCESSES                                                            contracts throughout the Department to determine whether they
                                                                     contain information security provisions that adequately
Federal acquisition legislation in the 1990s mandated sweeping       safeguard sensitive but unclassified systems and information.
changes in the way federal agencies buy goods and services.          (See September 2002 issue, page 51.) We found that such
Today acquisition reform initiatives are well under way, and the     provisions were either missing or inadequate and recommended
task before Commerce has shifted from successfully                   that the Department develop policy, incorporate appropriate
implementing reform initiatives to effectively managing the          contract provisions, and require training to help ensure that
processes those initiatives have fostered.                           contracts provide for adequate information security and that
                                                                     acquisition, program, and technical personnel know how to plan,
Effective acquisition processes are critical to the Department:      implement, and manage such contracts. The Department
Commerce annually spends more than $1 billion through                concurred with our recommendations and is taking actions to
contracts and other procurement vehicles. The Department must        address them.
balance the desire to streamline the acquisition process with the
need to ensure that taxpayer dollars are wisely spent and laws and   The Department agrees that acquisition planning, formulation of
regulations followed.                                                contract strategies, and contract administration need greater
                                                                     emphasis. According to the Department, efforts by its Office of
Acquisition reform was intended to reduce the time and money         Acquisition Management (OAM) to improve procurement
spent purchasing needed goods and services and improve the           management include (1) establishing an acquisitions review
efficiency of the process. To accomplish these goals, reform         board to oversee all major acquisitions and (2) evaluating
initiatives encourage contracting officers to (1) rely on            Commerce’s delegation and warrant program. The program is
performance-based service contracting and use performance-           intended to establish contracting authority and accountability,
based measurement tools such as earned value and risk                with the goal of realigning contracting authorities to increase
management, (2) consider past performance as a criterion for         overall effectiveness and accountability throughout the
selecting contractors, and (3) make increased use of                 Department’s procurement community. OAM has reportedly also
commercially available products. The initiatives emphasize           launched an initiative to restructure the Department-wide
results-based acquisition and promote life-cycle management of       certification program for COTRs. This initiative includes a new
information technology as a capital investment. For high-volume,     training plan to enhance COTR performance and the addition of
low-dollar purchases, they call for using the government             a performance plan element to improve their accountability. We
purchase card whenever possible to eliminate lengthy                 have not evaluated the effectiveness of these actions.
procurement lead times.

The resulting streamlined processes must, however, include basic     PURCHASE CARD PROGRAM
acquisition principles: careful planning, prudent review of
competitive bids, adept contract negotiations, well-structured       The Commerce Department’s purchase card program, established
contracts, and effective contract management. These are the          more than 15 years ago, is intended to expedite and simplify
principles we focus on in evaluating the Department’s                small purchases by reducing procurement-related administrative
performance in meeting this top 10 challenge.                        costs and improving management and internal controls. Over the
                                                                     years, purchase card use at the Department has increased
                                                                     significantly: in FY 2001, 91.1 percent of Commerce’s 364,345
PERFORMANCE-BASED CONTRACTING                                        small purchases were made with purchase cards. As a result, we
                                                                     are continuing our Department-wide audit of the purchase card
With that focus in mind, and given the increasing reliance on        program in accordance with our audit goals for 2002-2003.
contractors to provide services within the Department, we remain     Based on our reviews to date, we believe the vast majority of
concerned about service contracting. We have identified              Commerce’s 6,000 cardholders are using the cards responsibly



March 2003/Semiannual Report to Congress                                                                                           5
Major Challenges for the Department



and adhering to guidelines. However, we also know that our               personnel and positions. As part of this national effort, the
work, along with that of Commerce officials and managers, must           Department has identified and begun to address many of the
continue as we look for ways to improve the program and                  vulnerabilities in its emergency preparedness plans and
implement best practices to resolve problems, prevent and detect         procedures and in the physical security of its facilities. It is also
fraud, and encourage efficiencies.                                       working to correct identified vulnerabilities in its procedures for
                                                                         designating positions according to risk and sensitivity and for
During this semiannual period, we issued our final audit report on       conducting appropriate background investigations of the people
the Office of the Secretary’s (O/S) purchase card program,               hired to fill sensitive and security positions. Strengthening
assessing its compliance with departmental policies and                  policies and procedures to ensure the thoroughness of personnel
procedures, and federal laws and regulations. While we noted no          background checks is an important step that must be taken as
evidence of cardholder misuse of funds, we did find, as in past          departmental managers strive to improve Commerce security.
reviews of other departmental operating units, instances of
noncompliance with provisions of the Commerce Acquisition                Homeland Security Presidential Directive-3 (HSPD-3), dated
Manual: cardholders failing to (1) document competitive bids for         March 12, 2002, established a Homeland Security Advisory
transactions exceeding $2,500, (2) maintain a log of all purchase        System for the nation and requires executive branch agencies to
card transactions, (3) keep their cards properly secured, (4)            implement protective physical security measures to reduce
purchase from specified vendors ("mandatory sources"), or (5)            vulnerability and increase response capability during periods of
submit required documentation for purchases of accountable               heightened alert. Subsequently the Department issued a
property (sensitive items such as computers, or any item costing         memorandum to all Commerce operating units directing senior
$5,000 or more). O/S generally agreed with our                           officials to survey their current safety status and implement any
recommendations to remedy these problems and has initiated               measures required by the directive that are not already in
action to address our concerns.                                          place, along with supplementary measures that local conditions
                                                                         may necessitate.
In response to increased scrutiny from Congress, OMB, and OIG
and in light of Commerce’s increasing use of purchase cards,             In addition Presidential Decision Directive 67, dated October
OAM is implementing a purchase card improvement plan to                  1998, directs federal agencies to develop continuity of operations
ensure the integrity and prudent use of the purchase card by             plans (COOPs) to ensure the performance of essential functions
departmental cardholders. One aspect of this plan involves               during any situation that may disrupt normal operations. The
mandatory refresher training for all cardholders and approving           chaos of September 11 highlighted the need for each federal
officials. In addition an intra-departmental cross-functional team       agency to have a COOP in place that details the orderly transition
has been formed under the auspices of the Chief Financial Officer        to emergency operations and ensures that essential services and
and Assistant Secretary for Administration (CFO/ASA) to                  functions continue during a crisis, be it generated by terrorist-
evaluate future options for further strengthening the                    related incidents, natural disasters, or other events.
Department’s purchase, travel, and fleet card programs.
                                                                         In our March 2002 report on the status of emergency
                                                                         preparedness and security programs at a cross-section of
                                                                         Commerce facilities in the Washington, D.C., area and across the
                                                                         nation, we concluded that significant improvements had been
CHALLENGE 5:                                                             made since September 11 in the Department’s readiness to deal
ENHANCE EMERGENCY                                                        with future emergencies.

PREPAREDNESS, SAFETY,                                                    Complying with Directive 67 and other recent security-related
AND SECURITY OF                                                          guidance is a complex, resource-intensive undertaking for
                                                                         Commerce, given the size of its workforce, its diverse and
COMMERCE FACILITIES                                                      important missions, and the geographical spread of its
AND PERSONNEL                                                            approximately 500 facilities across the 50 states and 160 overseas
                                                                         locations. In recent inspections of overseas posts operated by the
As the threat of terrorism against U.S. interests remains high at        U.S. and Foreign Commercial Service, we identified the need for
home and abroad, the need to strengthen security and emergency           more timely security upgrades, improved oversight of security
preparedness in both the public and private sectors remains              operations, and better management of resources. Heightened
urgent. Federal agencies have rededicated themselves to ensuring         security requires a variety of measures: infrastructure risk
the integrity of their operations, the protection of their people,       assessments, emergency backup sites, upgraded physical
their ability to continue essential services and operations during       security, and employee awareness and training, to name a few.
a crisis, and the suitability of risk and sensitivity designations for   The Department’s personnel are being asked to safeguard life and



6                                                                                    U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department



property under emergency circumstances and to ensure that              rights. However, it anticipates that by 2008 patent pendency will
essential functions continue during any of a broad spectrum of         be 27 months rather than the 18 months projected in the original
emergencies. We believe Commerce is making progress on many            plan. USPTO now anticipates it will need at least a decade to
of these fronts, but the challenge is massive.                         reach an 18-month pendency.

Given the heightened awareness of our vulnerability to acts of         We plan to review some of the operational changes proposed in
terrorism, the Department will have to regularly revisit its           USPTO’s plan. We view completion of USPTO’s transition to a
procedures for ensuring the safety and security of its employees       performance-based organization as critical to its operating
and operations, and modify them as needed. We will                     success and ability to address other challenges we identified in
continue to monitor its efforts in this regard and report our          recent years. Our office is currently reviewing whether and how
findings accordingly.                                                  the productivity of patent examiners can be improved to help
                                                                       decrease patent pendency. Specifically we are evaluating the
                                                                       effectiveness and efficiency of current production levels and
                                                                       goals and USPTO’s awards system.

CHALLENGE 6:
SUCCESSFULLY OPERATE
THE U.S. PATENT AND                                                    CHALLENGE 7:
TRADEMARK OFFICE AS                                                    INCREASE INTERNATIONAL
A PERFORMANCE-BASED                                                    COMPLIANCE WITH TRADE
ORGANIZATION                                                           AGREEMENTS AND EXPAND
The American Inventors Protection Act of 1999 established the
                                                                       MARKET ACCESS FOR
U.S. Patent and Trademark Office as a performance-                     AMERICAN EXPORTERS
based organization, giving it greater flexibility and
independence to operate more like a business. As such, USPTO           To compete effectively in today’s global marketplace, U.S.
has not only broader responsibility for managing its                   companies need help addressing unfair trade practices, violations
operations but also expanded control over its budget                   of trade agreements, inadequate intellectual property protection,
allocations and expenditures, personnel decisions and                  and other impediments to the import and export of goods and
processes, and procurement operations.                                 services, as well as trade disputes with foreign firms operating in
                                                                       U.S. markets. Commerce must ensure that its trade compliance
In June 2002 the bureau responded to concerns of its many              and market access efforts adequately serve U.S. companies by
stakeholders by issuing its 21st Century Strategic Plan, which it      helping expand trade, open world markets, and eliminate unfair
believed would help guide the way to meeting the many                  competition from imports priced at less than fair market value or
challenges that have accompanied its transition to performance-        subsidized by foreign governments.
based operations. The bureau must continue to develop the
necessary personnel, procurement, and administrative policies,         Commerce, through various offices within the International
as well as performance-oriented processes and standards for            Trade Administration (ITA), works with the Office of the U.S.
evaluating cost-effectiveness, while meeting its performance           Trade Representative, the Departments of State and Agriculture,
goals under the Government Performance and Results Act                 and numerous other federal agencies to monitor and enforce trade
(GPRA) and the timeliness standards of the American Inventors          agreements. The number and complexity of agreements have
Protection Act.                                                        increased substantially in recent years.

USPTO recently revised this 5-year strategic plan. According to        To help in its compliance efforts, ITA created the Trade
the agency, the plan is still aggressive and far-reaching in that it   Compliance Center in 1996. The center monitors U.S. trade
provides a roadmap for major changes in patent and trademark           agreements and reviews complaints from a variety of sources.
processes, including steps to (1) move to a paperless environment      When warranted, it forms a compliance team to bring a case to
and promote e-government, (2) enhance employee development,            satisfactory conclusion. ITA operating units perform a
(3) explore competitive sourcing, and (4) improve and maintain         substantial amount of market access and trade compliance
quality assurance. USPTO’s strategic plan also calls for the           work. Overall ITA’s approach to trade compliance and market
agency to work with worldwide intellectual property offices to         access is to try to solve problems at the lowest level
create a global framework for enforcing intellectual property          possible—avoiding formal dispute settlement structures such as



March 2003/Semiannual Report to Congress                                                                                               7
Major Challenges for the Department



the World Trade Organization, which can take years to resolve            To improve compliance with trade agreements, ITA also needs to
trade disagreements.                                                     promote a more coordinated federal effort. We noted that the
                                                                         bureau’s trade agreement compliance process, as managed by the
On the import side, unfair foreign pricing and government                Trade Compliance Center, needs to better coordinate and track
subsidies can disrupt the free flow of goods and adversely affect        trade compliance and market access activities within ITA (see
U.S. companies’ global competitiveness. ITA’s Import                     page 50 of our March 2002 Semiannual Report to Congress).
Administration (IA) works with the International Trade
Commission to enforce the nation’s antidumping and                       In the future, we intend to review other aspects of ITA’s
countervailing duty laws.                                                approach to market access and trade compliance, as well
                                                                         as its administration of the antidumping and countervailing
In 2001 GAO identified monitoring and enforcement of trade               duty regulations.
agreements as a major management issue for Commerce, citing
two main reasons—one, the Department’s shortage of staff with
the expertise to monitor compliance with trade agreements, and
two, its difficulty obtaining balanced, comprehensive input from         CHALLENGE 8: INCREASE THE
the private sector. To address these issues the Secretary of
Commerce has made monitoring and enforcing trade agreements
                                                                         EFFECTIVENESS OF MARINE
a top priority for ITA and for the Department as a whole.                RESOURCE MANAGEMENT
Commerce received additional funding for trade compliance
activities in FY 2001, and a recent audit found that with the            For nearly 30 years the National Marine Fisheries Service
increased funding, ITA’s Market Access and Compliance unit               (NMFS) has had to balance two competing interests: promoting
was able to effectively recruit and hire sufficient staff for critical   commercial and recreational fishing as vital elements of our
trade and compliance positions (see page 20).                            national economy and preserving populations of fish and other




Boundaries for NMFS regions and fishery management councils.
Source: OIG.




8                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                     Major Challenges for the Department



marine life. The Marine Mammal Protection Act of 1972 and the         used to create the estimates typically undergo intense scrutiny by
Endangered Species Act of 1973 gave NMFS responsibility for           fishers and conservation groups.
rebuilding and maintaining sustainable fisheries, promoting the
recovery of protected marine species, and protecting the health of    We are working on two reviews related to fish stock assessment.
coastal marine habitats. The Magnuson-Stevens Act of 1976             The first is in response to a congressional request to review the
made NMFS the primary federal agency for managing marine              adequacy of NMFS’ process to ensure equipment it uses to
fisheries and established a regional fishery management system        collect independent survey data is properly maintained and
to help the agency carry out its mission. A 1996 amendment to         calibrated. Congressional concern stemmed from allegations of
the act strengthened NMFS’ role in protecting and sustaining          problems with the trawling equipment used to conduct NMFS’
fisheries.                                                            survey of New England groundfish. The second is a review of the
                                                                      NMFS observer program. Fishery observers are deployed on U.S.
Eight regional fishery management councils, along with NMFS,          commercial fishing vessels to collect catch data, monitor bycatch
are responsible for preparing plans to govern domestic fisheries      and protected species interactions, and perform biological
in federal waters. These plans set forth conservation and             sampling. The data is used to supplement research and aid in the
management measures to prevent overfishing and rebuild                management of living marine resources. We are reviewing how
overfished stocks and to protect, restore, and promote the long-      NMFS ensures data quality and whether the data is meeting
term health and stability of the fishery.                             research and fishery management needs.


COMPLEXITY OF REGULATIONS
CONSTRAINS ENFORCEMENT                                                CHALLENGE 9:
OIG recently evaluated the enforceability of fishing regulations in   CONTINUE TO IMPROVE
fishery management plans and the enforcement methods used by          THE DEPARTMENT’S
NMFS’ Office for Law Enforcement (OLE). We found that the
complexity of the regulations resulting from the fishery
                                                                      STRATEGIC PLANNING
management process constrains the ability of OLE and the U.S.         AND PERFORMANCE
Coast Guard to enforce them. Although we recognize that the           MEASUREMENT IN
councils and NMFS must meet multiple challenges and
requirements in developing fishery management plans, we believe       ACCORDANCE WITH
that improving the clarity and, thus, the enforceability of           THE GOVERNMENT
management measures will enhance the overall effectiveness of
both fishery management and enforcement efforts. We also found
                                                                      PERFORMANCE AND
that NMFS’ joint enforcement initiative with coastal states and       RESULTS ACT
territories is beneficial in supplementing federal enforcement
efforts. However, priorities and funding guidelines for the joint     Congress and agency managers require relevant performance
enforcement agreement program, and a process to verify and            measures and credible performance data to effectively fulfill their
document state performance, are needed. Finally, fishery              oversight responsibilities with respect to federal programs. The
enforcement efforts would benefit from greater information sharing    Government Performance and Results Act of 1993 was designed
within NOAA and among federal and state enforcement agencies.         to ensure the availability of such data by mandating that agencies
                                                                      set goals for program performance and report outcomes
                                                                      measured against those goals. As the government moves toward
STOCK ASSESSMENTS ARE                                                 integrating budget and performance information and using
OFTEN CONTROVERSIAL                                                   performance data to make funding decisions, the validity of
                                                                      reported performance results will be increasingly important.
Fish stock assessments—the collecting, analyzing, and reporting
of demographic information about fish populations—are used to         Although we believe the Department has made progress toward
help develop conservation and management measures in fishery          meeting the challenge of how best to plan and measure its
management plans. Stock assessments are a key element of the          performance, significant opportunities for improvement remain
fishery management process because they are used to determine         for meeting GPRA and other reporting requirements. One such
whether additional regulations are necessary to rebuild fish          opportunity concerns data quality. Commerce should clearly
stocks or whether greater fishing opportunities can be allowed.       articulate the level of reliability that can be placed on the
Because of their potential impact on commercial and recreational      performance data it provides in its annual Performance &
fishing, these assessments are often controversial. The methods       Accountability Report.



March 2003/Semiannual Report to Congress                                                                                              9
Major Challenges for the Department



Another opportunity for improvement involves performance                      ■   NOAA has 20 projects scheduled or in process including
measures: our audits of several such measures used by                             the National Ocean Service’s Marine and Environmental
departmental units (BIS, NIST, NTIA, and USPTO) indicate a                        Health Research laboratory in South Carolina, a National
widespread need for stronger internal controls to ensure accurate                 Marine Fisheries Service laboratory in Hawaii, and a
reporting of performance data and improved explanations and                       satellite operations facility in Suitland, Maryland.
disclosures of results. For example, procedures should be                     ■   NIST will continue its multimillion-dollar program to
established to ensure that (1) reported information is reconciled                 upgrade existing laboratories in Gaithersburg, Maryland,
against supporting data and (2) only data from the appropriate                    and Boulder, Colorado, and to complete construction of
time period is included in performance results.                                   the Advanced Measurement Laboratory building in
                                                                                  Gaithersburg and a central utilities plant in Boulder.
These issues again emerged in our recent audit of selected
performance measures at NOAA. We are concerned that—for the
                                                                              ■   Included in the President’s budget is the Census Bureau’s
measures we evaluated—NOAA may need to (1) improve                                construction of two new buildings at its Suitland,
internal controls, (2) restate data that was incorrectly reported in              Maryland, headquarters, which will provide employees
the past, (3) provide additional disclosures and explanations of                  with safe, modern facilities.
performance results, and (4) assess the value of certain measures             ■   Commerce plans to modernize its headquarters, the
to determine whether they should be dropped or revised.                           Herbert C. Hoover Building in Washington, D.C.

We will continue to evaluate performance measurement and
reporting at NOAA and other bureaus and, as warranted, make
recommendations to the Department and its operating units
regarding the accuracy, appropriateness, reliability, and
usefulness of performance data used.




CHALLENGE 10:
EFFECTIVELY MANAGE
                                                                         The $1.2 billion projected cost of USPTO’s five-building complex
MAJOR COMMERCE                                                           represents more than 40 percent of the total planned major construction
                                                                         budget estimated for Commerce’s five largest bureaus. Although USPTO’s
RENOVATION AND                                                           cost is proportionately larger, all these amounts represent sizeable
CONSTRUCTION PROJECTS                                                    expenditures of taxpayer dollars, emphasizing the importance of closely
                                                                         monitoring both project schedules and expenditures for all such projects.
USPTO and GSA are currently undertaking one of the federal               Source: Commerce Office of Real Estate Policy and Major Programs.
government’s largest real estate ventures—construction of
USPTO’s state-of-the-art office complex in Alexandria, Virginia.         Effective renovation and construction management is a critical
When completed in 2005, the 5-building complex will consolidate          challenge for the Department because of the numerous inherent
USPTO employees and operations currently scattered among 18              risks involved in planning and managing large, costly, and
buildings in nearby Crystal City, Virginia. With construction well       complex capital improvement and construction projects.
under way, USPTO must aggressively hold the line on project              Departmental leadership and OIG oversight are needed to
expenditures to stay within the legislatively mandated cap on the        maximize Commerce’s return on its investment in these projects.
cost of completing the build-out of the facility’s shell. It must also   Past OIG reviews of major renovation and construction ventures
monitor construction progress to help ensure the project stays on        have demonstrated that up-front oversight—that is, close
schedule, and carefully implement the relocation of its facilities to    monitoring during planning and implementation—is essential.
minimize costs and adverse effects on operations, employees,             Detecting and addressing potential problems during the
patent applicants, and the public. We will be monitoring this major      developmental stages rather than after a project is begun or
challenge and will follow up on issues we identified during the          completed saves time and money. For this reason, we continue to
project’s planning and design, such as space planning and                actively monitor the progress of the Department’s current and
allocation, relocation strategies, and actual versus target costs and    planned construction projects.
completion schedules.
                                                                         3
                                                                           According to the U.S. Department of Commerce’s Office of Real Estate Policy
In addition to USPTO’s complex, the Department has plans for             and Major Programs, as of fiscal year 2004, “major” projects are those costing
numerous major3 renovation and construction projects:                    $2.3 million or more.




10                                                                                    U.S. Department of Commerce/Office of Inspector General
                      Department of Commerce
                      Organization Chart




March 2003/Semiannual Report to Congress       11
                           BUREAU OF INDUSTRY
                           AND SECURITY

                                        EXPORT CONTROL REVIEW REVEALS

T
       he
       Bureau of                       WEAKNESSES IN BIS’ INVESTIGATIVE/
       Industry and                         ADMINISTRATIVE PROCESSES
Security is primarily responsible
for administering and enforcing the             The inspectors general of the Departments of Commerce, Defense, and State, the
nation’s system for controlling exports           Central Intelligence Agency, and the U.S. Postal Service marked the fourth-year
of sensitive dual-use goods and                     requirement of the National Defense Authorization Act for Fiscal Year 20004 by
technologies. BIS’ major functions include            conducting an interagency review of government-wide efforts to enforce
formulating and implementing export control            export controls. They each, in turn, examined their own agency’s
policy; processing export license applications;          enforcement activities.
conducting various policy, technical, and
economic analyses; promulgating regulations;               At Commerce, we reviewed the Bureau of Industry and Security’s (1)
conducting industry outreach; and enforcing the             conduct of investigations, (2) interactions with the law enforcement and
Export Administration Act and regulations. BIS is            intelligence community, (3) monitoring of license conditions, (4)
divided into two units:                                       outreach to exporters, and (5) end-use checks. These activities are
                                                                                handled by BIS’ two primary divisions—Export Enforcement and
Export Administration implements U.S. export                                    Export Administration. We found a number of deficiencies in each of
control and nonproliferation laws and policies through                          these areas, several of which we had identified in our 1999 export
export licensing, commodity classifications, and                                licensing review.5
advisory opinions; technical, economic, foreign
availability, and policy analyses; promulgation of
regulations; and industry outreach. It also conducts                           INVESTIGATIVE PROCESS NEEDS GREATER
various defense industry activities and enforces                               MANAGEMENT ATTENTION TO INCREASE
industry compliance with arms control treaties.                               CRIMINAL PROSECUTIONS AND
                                                                              ADMINISTRATIVE SANCTIONS
Export Enforcement participates in reviews of
export license applications and conducts criminal                     The Office of Export Enforcement (OEE) endeavors to identify,
and administrative investigations relating to the                   investigate, and apprehend violators of the Export Administration
export control portions of the Export                              Regulations (EAR) and to obtain criminal and administrative sanctions
Administration Act and regulations. It also                       against them. We uncovered systemic weaknesses at key points in the
administers and enforces the antiboycott                        investigative process that, cumulatively, have negatively impacted Export
provisions of the act and regulations.                        Enforcement’s ability to achieve its mission. In FY 2002, for example, just 3 of
                                                            an average yearly caseload of 1,038 cases resulted in convictions, 25 were closed
                                                         with administrative sanctions, and 208 were closed with warning letters—an
                                                      informal action that imposes neither fines nor restrictions on export privileges but
                                                   advises exporters that the warning may affect how OEE pursues any future violations.




4
  NDAA mandates that the inspectors general, in consultation with the directors of Central Intelligence and the Federal Bureau of Investigation, assess the adequacy
of export controls and counterintelligence measures for preventing countries and entities of concern from acquiring militarily sensitive U.S. technology and technical
information. The legislation further mandates that the inspectors general report their findings to Congress by March 30 of each year until 2007.
5
 Improvements Are Needed to Meet the Export Licensing Requirements of the 21st Century, U.S. Department of Commerce Office of Inspector General, IPE-11488,
June 1999.




12                                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                           Bureau of Industry and Security



Some of the investigative weaknesses are the result of factors                program, BIS may miss opportunities to prevent export
outside of BIS’ control. For example, the bureau must rely on                 violations through education and detect violations via
U.S. Attorneys to criminally prosecute its cases. We were told                company leads.
that some of them are reluctant to accept these cases because of
their complexity, lack of jury appeal, and difficult enforceability
in the absence of strong export control legislation. Regardless,
we noted deficiencies in the following areas that warrant BIS’        BIS SHOULD CONTINUE TO IMPROVE THE
attention and improvement:                                            END-USE CHECK PROCESS
    ■   case management and guidance,
                                                                      End-use checks, an important part of the license evaluation and
    ■   management oversight of the investigatory process,            enforcement process, verify the legitimacy of dual-use export
    ■   processing of license determinations,                         transactions controlled by BIS. A pre-license check is used to
                                                                      validate information on export license applications by
    ■   the administrative remedy process,
                                                                      determining whether an overseas party is suitable for
    ■   collection of delinquent administrative penalties,            involvement in the transaction. Post-shipment verifications
    ■   agent training, and                                           determine whether the exported goods were in fact received by
    ■   cooperation with other federal law enforcement and intel-     the party named on the license and are being used in accordance
        ligence agencies.                                             with license provisions. Commerce’s U.S. and Foreign
                                                                      Commercial Service (US&FCS) officers stationed at overseas
                                                                      posts conduct most pre-license checks, while OEE agents
EXPORT ADMINISTRATION AND EXPORT                                      conduct most post-shipment verifications under the Safeguards
ENFORCEMENT ARE NOT ADEQUATELY                                        Verification Program. BIS export control attaches stationed at
MONITORING LICENSES OR                                                Abu Dhabi, Beijing, and Moscow also conduct end-use checks.
STRATEGICALLY CONDUCTING
OUTREACH TO U.S. EXPORTERS                                            Our evaluation found that end-use checks are a valuable tool but,
                                                                      despite improvements to the process, a number of the problems
We noted deficiencies in the following areas:                         we identified in 1999 remain unresolved.
    ■   Licenses with Reporting Conditions EAR allows BIS
                                                                          ■   US&FCS checks Officers have not received training
        to further limit transactions and monitor shipments                   needed to conduct effective end-use checks and can be
        authorized under an export license by placing conditions              slow to complete them—problems made worse by BIS’
        on the license itself. There are 54 possible conditions, 7            failure to sometimes provide adequate product informa-
        of which have reporting requirements—that is, the licens-             tion in its formal requests for end-use checks. In
        ee must provide BIS with various types of export                      addition, the end-use check handbook needs to be revised
        documentation on the shipment. Export Administration is               to include instructions for coordinating checks with other
        responsible for monitoring 6 of the 7 conditions, and                 U.S. agencies at a particular overseas post and made
        Export Enforcement the remaining one. We found that                   available on-line to ensure that officers have easy access
        Export Administration and Export Enforcement are not                  to the most recent guidance.
        adequately monitoring licenses with reporting condi-              ■   Safeguards team checks Overall we believe the
        tions—a problem we identified in our 1999 report.                     Safeguards Verification Program is working reasonably
        When license conditions are not carefully monitored, BIS              well. However, improvements in several areas—such as
        cannot be certain that goods were not diverted to unau-               the writing and dissemination of trip reports and coordi-
        thorized end users or that exporters who fail to comply               nation with other U.S. government agencies at
        with conditions are denied subsequent licenses.                       post—would likely make the program more effective.
                                                                          ■   Pre-license checks BIS and licensing referral agencies
    ■   Outreach While BIS does contact U.S. exporters to edu-                rely on the results of pre-license checks to determine the
        cate them about export controls, OEE has neither a                    ultimate disposition of a license application. We identi-
        national plan for proactively identifying and conducting              fied instances in which Export Enforcement
        outreach with manufacturers and exporters of critical                 recommended rejection of license applications, but
        commodities nor formal guidance for helping agents                    Export Administration returned them to applicants with-
        identify such firms. Export Enforcement did conduct                   out action—neither approval nor denial. The two offices
        nationwide outreach to chemical manufacturers in the                  did not always attempt to reach consensus on license rec-
        immediate aftermath of September 11, 2001.                            ommendations via the dispute resolution process outlined
        Nonetheless, without an established, proactive, national              in a 1996 memorandum of understanding.




March 2003/Semiannual Report to Congress                                                                                            13
Bureau of Industry and Security



EXPORT ADMINISTRATION’S                                                             begun some of the recommended corrective actions before
PROCESSING OF LICENSE                                                               completion of the reviews, and is committed to taking vigorous
DETERMINATIONS FOR CUSTOMS                                                          action to enforce federal dual-use export control laws. (OFFICE
IS UNTIMELY                                                                         OF INSPECTIONS AND PROGRAM EVALUATIONS:
                                                                                    IPE-15155)
The Export Administration Act6 allows Customs to detain a
shipment for up to 20 days, after which it must formally seize or
release the goods. Within this 20-day window, Customs                               STRONGER MANAGEMENT
must ascertain whether the commodity requires a valid license
for export and—for dual-use items—will request a license
                                                                                    CONTROLS ARE NEEDED FOR
determination from Export Administration. As in 1999 we found                       EXPORT ENFORCEMENT’S
that Export Administration is slow to process these requests: less                  FIREARMS
than 50 percent of the FY 2002 requests we examined were
processed within 20 days. We also found that the determination
                                                                                    As part of our review of the Bureau of Industry and Security’s
referral process is not automated and that the two agencies had
                                                                                    enforcement of dual-use export controls, we looked at OEE’s
insufficient guidance on the standard procedures and format for
                                                                                    handling of firearms used by its special agents to determine
(1) submitting license determination requests, (2) processing
                                                                                    whether the bureau (1) complies with established laws,
them in a timely manner, and (3) providing recourse when they
                                                                                    regulations, and directives; (2) maintains adequate internal
are late.
                                                                                    controls; and (3) operates its firearms program with proper
                                                                                    management oversight and accountability.
BIS indicated that bureau managers had already identified many
of the issues raised in our report and either had addressed them or
                                                                                    We found the physical security of firearms to be generally
were in the process of doing so. Specifically BIS indicated that it
                                                                                    satisfactory at the four field offices we visited. However, we
will be devoting greater management attention to the
                                                                                    uncovered several systemic weaknesses resulting from
investigatory process by tracking caseloads through its new
                                                                                    ineffective management controls and lack of accountability over
Investigative Management System and conducting periodic
                                                                                    possession and use of BIS weapons at both headquarters and
caseload reviews, ensuring that license determinations are
                                                                                    field locations.
completed on a more timely basis through BIS tiger teams,7
streamlining case processing, reviewing and taking appropriate                          ■   Outdated Guidance OEE’s firearms policies and
actions on delinquent accounts, and strengthening case                                      procedures are codified in its Special Agent Manual,
management procedures. BIS has said it will also improve its                                which was issued in 1989. Although much of the
monitoring of license conditions by programming automated                                   manual was revised in 2002, the firearms section was
license reminders in its Export Control Automated Support                                   not updated. Thus, some of its guidance is inconsistent
System to follow up on licenses with post-shipment verification                             with current law enforcement requirements as well as
conditions 1 year after issuance and send automated reminders to                            with recent directives put forth by the OEE director.
exporters. To improve the end-use check process, and consistent                             During our review we briefed OEE about our findings,
with funding availability, BIS will provide training to US&FCS                              and it has recently drafted new firearms guidance to be
officers at seminars in the United States and through regional                              incorporated into the Special Agent Manual, which we
training programs and individual briefings overseas. BIS will                               believe addresses most of the internal control weaknesses
also place the end-use check handbook on US&FCS’s protected                                 we identified.
intranet site.                                                                          ■   Lax Inventory Controls Neither the current nor previ-
                                                                                            ous national firearms coordinator could provide us with
As indicated in our report, BIS management has been                                         up-to-date inventory records or document to whom spe-
consistently receptive to our concerns and recommendations, had                             cific firearms were assigned. We identified other lapses
                                                                                            as well, such as instances in which weapons’ transfers
                                                                                            among offices were not reflected in inventory records,
6
  Although the Export Administration Act is expired, the President’s executive              and weapons listed in inventory records could not be
order invoking emergency authority under the International Emergency
                                                                                            readily located. In some instances special agents in
Economic Powers Act directs the executive branch to continue to comply with
the provisions of EAA to the extent possible.                                               charge (SACs) or their designated alternates claimed to
7                                                                                           have conducted the required weapons inspections and
  A “tiger team” is a group of users who volunteer or are hired to expose errors
or security holes in new systems, programs, processes, software, etc., or to find
                                                                                            spot-checks and to have updated inventories accordingly
out why a system’s security is being broken. In the U.S. military, a tiger team             but could not document these actions.
is a group charged with trying to break through security around a military base
or special restricted area.




14                                                                                              U.S. Department of Commerce/Office of Inspector General
                                                                                                             Bureau of Industry and Security



    ■   Unreported Lost or Stolen Weapons We found two                             ●   Firearms used for official duty did not always
        instances in which an OEE field office reported a lost or                      (1) conform to equipment standards or
        stolen weapon to the local police department but failed to                     (2) have approval for use or documentation to sup-
        report it to the National Crime Information Center                             port that approval.
        (NCIC)—considered the primary nationwide system for
                                                                                   ●   Some OEE agents were carrying personal weapons
        tracking stolen or recovered firearms. In response to this
                                                                                       without documented approval.
        finding, BIS did report one of the weapons to NCIC.
        However, failure to report the incidents in a timely man-          ■   Excess Firearms Were Neither Surplused nor
        ner exposed OEE to negative publicity, had the missing                 Destroyed OEE issued new weapons to agents in
        weapons been misused, and disclosed weaknesses in                      February 1998 but retained 135 of the retired
        OEE’s internal controls.                                               weapons as backups or replacements. We found that
    ■   Failure to Meet Weapon Qualification Requirements                      103 of these remain unused and should therefore be
        Records covering the period October 2000 through June                  surplused or destroyed.
        2002 showed that 16 of 89 special agents (18 percent)
        did not consistently qualify with their weapons and that       We made a number of recommendations to improve the firearms
        OEE did not remove weapons from those who failed to            program. BIS has since reported that it took action on all of them,
        qualify. In its comments on our draft report, BIS noted it     noting that it has properly authorized and documented all OEE-
        believes this is misleading in that agents are authorized a    issued or personally owned firearms, is now maintaining a
        30-day make-up period and, in the vast majority of cases,      comprehensive list of firearms that agents are authorized to carry,
        all special agents qualified within that 30-day period.        and is destroying unused backup weapons; and is issuing a
        However, BIS could not provide us any supporting docu-         comprehensive, new firearms policy consistent with best
        mentation that such a 30-day grace period was BIS              practices in the law enforcement community. (OFFICE OF
        policy or that the agents we identified had, in fact, quali-   INSPECTIONS          AND       PROGRAM          EVALUATIONS:
        fied within the 30 days.                                       IPE-15155-1)
    ■   Use of Unauthorized Firearms We identified a need for
        improvement in the following areas:




March 2003/Semiannual Report to Congress                                                                                              15
                       ECONOMIC DEVELOPMENT
                       ADMINISTRATION

                           REVOLVING LOAN FUNDS

T
        he
        Economic                      EDA’s Economic Adjustment Program provides, among other things, grants to capitalize revolving
        Development                       loan funds (RLFs). Currently more than 600 RLFs are operating throughout the country, with
Administration was                            a total capital base of about $1 billion. This includes EDA’s share of the initial investment
established by the Public Works                  and matching funds contributed by state and local governments, nonprofit organizations,
and Economic Development Act                        and other eligible recipients that operate RLFs. The program focuses on communities
of 1965 to generate new jobs, help                    and regions that have experienced or are threatened by serious structural damage to
retain existing jobs, and stimulate                     their underlying economic base. The purpose of an RLF is to leverage other public
commercial and industrial growth in                       and private investment in key sectors of the local economy and to stimulate
economically distressed areas of the United                employment for the local workforce. RLFs offer loans to local businesses that
States. EDA continues to fulfill this mission                otherwise cannot secure sufficient private financing, providing a continuous
under the authority of the Economic                            infusion of economic development funds into the affected community.
Development Administration Reform Act of
1998, which introduced the concept of                            Because RLFs manage cash and other liquid assets, they are particularly
Comprehensive Economic Development                                susceptible to fraud, waste, and abuse if not adequately managed and
Strategies, a local planning process designed to                   monitored. Recognizing the sizable federal investment in these funds, we
guide the economic growth of an area. Based on                     have worked cooperatively with EDA over the past 2 years to identify
these locally and regionally developed strategies,                 high-risk investments and have conducted a series of RLF audits targeting
EDA works in partnership with state and local                      projects on the basis of a variety of factors that typically suggest
governments, regional economic development                         heightened vulnerability. Such factors include minimal use of grant funds,
districts, public and private nonprofit                            large uncommitted cash balances, and lack of single audit coverage. Our
organizations, and Indian tribes to help distressed                audits have identified several recurring issues, the most serious of which are
communities address problems associated with                      ■ unneeded funds from recapitalization grants,
long-term economic deterioration and recent,
                                                                 ■ excessive cash reserves,
severe economic dislocations, including
recovery from the economic impact of natural                    ■ inappropriate loans,

disasters, the closure of military installations              ■ inadequate accounting for RLF assets (cash and loans), and
and other federal facilities, changes in trade              ■ inadequate audit coverage.
patterns, and the depletion of natural
resources. EDA provides eligible
                                                        Based on findings in individual audits, we have made recommendations, as
recipients with technical assistance, as
                                                      appropriate, to recoup unused grant funds, remedy fiscal and administrative
well as grants for public works and
                                                    deficiencies, and ensure compliance with applicable laws and program requirements.
economic development, planning,
                                                 In all cases, EDA has required grant recipients to take prompt corrective action.
training and research, and
economic adjustment.
                                           Summarized below are the results of the eight RLF audits we conducted this semiannual period,
                                      which include recommendations that more than $14 million of revolving loan funds be put to better
                                  use. EDA is reviewing the audit findings and recommendations to develop corrective action plans.


      AUDIT RECOMMENDS TERMINATION OF
SOUTH CAROLINA RLF THAT DUPLICATES EXISTING FUNDS

In the aftermath of 1989’s Hurricane Hugo, EDA awarded a $1 million RLF grant to a South Carolina economic development
organization, intended to create long-term employment opportunities for workers displaced by the hurricane by increasing the inventory



16                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                       Economic Development Administration



of industrial buildings in rural areas of the state. The RLF          No payments were made during the agreed-upon period, and in
provided first mortgage loans to nonprofit local development          March 2002, EDA sent the recipient a payment demand and
corporations to finance the speculative construction of industrial    requested an OIG audit of the project. Our audit revealed that
buildings in the 24 South Carolina counties declared a disaster       corporation officials had engaged in a continuing pattern of
area after the hurricane. Seven loans totaling $2,599,771 were        neglect and mismanagement warranting termination of the award
made between 1991 and 1996 to finance the construction of             for cause. In addition to the dereliction with respect to the
seven buildings.                                                      $50,000 reimbursement, we found that the fund administrators
                                                                      were remiss in pursuing collections of defaulted loans, were
At the request of the recipient, EDA amended the grant in July        unable to properly account for RLF assets, and had otherwise
2001 to modify the original RLF plan and eligibility area. The        failed to meet their fiduciary responsibilities to the RLF.
amendment increased the number of counties covered by the
RLF to 41 of the state’s 46 counties and changed the lending          Based on these findings, we calculated the amount due to the
strategy from construction loans for speculative industrial           federal government as follows:
buildings to loans for business expansion and the acquisition of
fixed assets—a purpose routinely employed by EDA-funded                 Fund cash balance as of March 29, 2002 . . . . . . .$ 21,816
RLFs to meet long-term economic development objectives.
                                                                        Defaulted loans unaccounted for . . . . . . . . . . . . . .519,010
Our audit found that the RLF, as modified, unnecessarily                Balance due from 1990 audit . . . . . . . . . . . . . . . . . .50,000
duplicates and competes with 13 existing RLF projects that              Interest on $50,000 through 12/31/02 . . . . . . . . . . . .10,792
collectively cover the entire state of South Carolina and have
sufficient capital available to meet lending needs. The RLF has         Amount to be refunded to EDA . . . . . . . . . . . .$ 601,618
made only two loans under its new operating plan—both of
which could have been made by one of the other funds—and has
failed to meet EDA’s 75 percent capital utilization standard for at   We recommended that EDA take immediate action to terminate
least 3 years, resulting in an excess cash balance of $713,637 as     the grant and recover $601,618 from the corporation.
of March 31, 2002.                                                    (ATLANTA REGIONAL OFFICE OF AUDITS: ATL-15124)

Based on the RLF’s apparent inability to make loans and the lack
of need for its services, we recommended that EDA terminate the       NEW YORK RLF HAS MILLIONS IN
award, transfer administration of the two outstanding loans to the    EXCESS CASH RESERVES
RLFs serving the borrowers’ areas, and recover EDA’s $606,790
share of the fund balance. (ATLANTA REGIONAL OFFICE OF                A 1993 OIG audit of a $10 million RLF grant to a New York
AUDITS: ATL-14915)                                                    State agency (ATL-4603) revealed substantial waste and misuse
                                                                      of the RLF capital, and the state was required to reimburse the
                                                                      fund for $13 million. By July 2002 the RLF’s capital balance
CONTINUING PATTERN OF                                                 had grown to $25 million, distributed between two subsidiary
MISMANAGEMENT REQUIRES                                                funds administered by the two counties intended to benefit from
TERMINATION OF                                                        the award.
WASHINGTON, D.C., RLF
                                                                      Our 2003 audit of the RLF found that it had a total of almost $6.3
An economic development corporation established to raise              million of uncommitted cash on hand. While permissible under
educational, social, and economic levels of residents of southeast    EDA’s 75 percent capital utilization standard, we concluded that
Washington, D.C., received a $500,000 grant from EDA in 1979          a portion of this amount could be put to better use by increasing
to capitalize an RLF. Since its inception, the RLF has been           capital utilization. This action is consistent with EDA guidelines
plagued by poor performance and inadequate financial                  for RLFs with capital bases in excess of $4 million, which are
management. Problems such as inaccurate records, improper             expected to maintain a proportionately higher percentage of their
loans, and questionable administrative expenses were previously       funds loaned out. The 90 percent standard we recommended
documented by this office in audit reports issued as early as 1985    would result in an additional $3.8 million committed to loans,
(OIG report no. 5AD-5-0469). In a 1990 report (FMD-0022-0-            while still leaving $2.5 million as allowable cash on hand.
0008), we recommended that EDA terminate the award and take
action to recover $204,357 in fund assets used to make improper       The audit also disclosed multiple instances of noncompliance
loans and pay for undocumented administrative expenses. The           with applicable RLF administrative requirements on the part of
final audit determination required the economic development           the state and both beneficiary counties. (ATLANTA REGIONAL
corporation to repay $50,000 to the RLF over a period of 3 years.     OFFICE OF AUDITS: ATL-15390)



March 2003/Semiannual Report to Congress                                                                                                  17
Economic Development Administration



SIGNIFICANT DEFICIENCIES FOUND IN                                       EXCESS CASH RESERVES AND
ADMINISTRATION OF CALIFORNIA RLF                                        INADEQUATE AUDIT COVERAGE
                                                                        OF ILLINOIS RLF
Our audit of an RLF serving three California cities disclosed
significant management deficiencies and multiple instances of           Our audit of a 1984 RLF grant to a city in Illinois revealed that
noncompliance with grant requirements, including the award of           the recipient had not met EDA’s 75 percent capital utilization
prohibited loans and loans to ineligible borrowers; failure to          standard for several reporting periods and was maintaining nearly
maintain adequately documented loan files and an approved RLF           $1.7 million in excess cash reserves. We also found that annual
plan; a $1.9 million leveraging shortfall for the loan portfolio;       audits of the city’s financial statements were not conducted in
and failure to properly account for fund expenditures or to ensure      accordance with the Single Audit Act and OMB Circular A-133,
required audit coverage. (DENVER REGIONAL OFFICE OF                     and that $95,000 in administrative expenses had been improperly
AUDITS: DEN-15181)                                                      charged to the RLF on the basis of estimates rather than actual
                                                                        costs incurred. (DENVER REGIONAL OFFICE OF AUDITS:
                                                                        DEN-15183)
INADEQUATE MANAGEMENT OF
RLF IN ALASKA
                                                                        WISCONSIN RLF MADE
During this semiannual period, we audited two RLFs operated by          INAPPROPRIATE LOANS
a nonprofit organization in Alaska, finding serious indications of
inadequate management. Excess cash reserves totaling $256,000           We audited an RLF grant awarded to a Wisconsin regional
were being maintained in the funds, and both loan portfolios have       planning commission in 1983 and found that the recipient had
performed poorly: 41 loans representing 93 percent of the funds’        made loans totaling $250,000 to obtain an equity position in an
total outstanding loan principal were in default, and there was         affiliated venture capital company, which violates program
little evidence of collection efforts. In addition, loan files lacked   proscriptions on conflicts of interest and the use of RLF funds to
proper documentation; loans had been made in violation of               acquire an interest in a business. We also found that the recipient
applicable conflict of interest provisions; the RLF plan was            had failed to contribute its full matching share to the fund.
obsolete; and required organizational audits did not properly           (DENVER REGIONAL OFFICE OF AUDITS: DEN-15308)
report RLF expenditures. (DENVER REGIONAL OFFICE OF
AUDITS: DEN-15182)


EXCESS CASH RESERVES AND
UNDERREPORTING OF INTEREST
INCOME AT CALIFORNIA RLF

Our audit of an RLF operated by a major California city disclosed
that the city had not met EDA’s capital utilization standard for the
fund during the past 4 years, resulting in nearly $1.2 million in
excess cash reserves. In addition, the city did not properly
account for RLF cash and underreported program income by
failing to credit the RLF with all interest earned. (DENVER
REGIONAL OFFICE OF AUDITS: DEN-15183)




18                                                                                 U.S. Department of Commerce/Office of Inspector General
                       INTERNATIONAL TRADE
                       ADMINISTRATION


T
       he                               MANAGEMENT WEAKNESSES AT US&FCS
       International
       Trade Administration                    OFFICES IN TURKEY REQUIRE ATTENTION
is responsible for trade promotion
and policy issues associated with                   The U.S. Foreign and Commercial Service (US&FCS) post in Turkey is the 21st
most nonagricultural goods and servic-                largest of its overseas offices, in terms of operating budget ($1.34 million in fiscal
es. ITA works with the Office of the U.S.               year 2002). US&FCS Turkey maintains offices in Ankara, Istanbul, and Izmir,
Trade Representative to coordinate U.S. trade             and constituent posts in Armenia and Turkmenistan. It has a diverse portfolio of
policy. ITA has four principal units:                       programs, including one of the agency’s most active advocacy programs for
                                                              helping U.S. firms compete for large projects.
Market Access and Compliance develops and
implements international economic policies of a                 We conducted an inspection of US&FCS Turkey operations from July
bilateral, multilateral, or regional nature. Its main             through November 2002, focusing on post operations during fiscal years
objectives are to obtain market access for American                2001 and 2002. We assessed the post’s management, program,
firms and workers and to ensure full compliance by                  financial, and administrative practices as well as its coordination with
foreign nations with trade agreements signed with the                other organizations in achieving ITA and Commerce goals. Our
United States.                                                       purpose was to determine whether the post plans, organizes, and
Trade Development advises on international trade and                controls its work and resources effectively; meets the needs of U.S.
investment policies pertaining to U.S. industrial sectors,          exporters; is helping increase U.S. export levels and market access;
carries out programs to strengthen domestic export                  and uses appropriate internal controls and financial management
competitiveness, and promotes U.S. industry’s                      procedures. We also sought to identify best practices that could be
increased participation in international markets.                  useful for other Commercial Service posts, assess US&FCS Turkey’s
                                                                   participation in trade compliance efforts, and evaluate infrastructure
Import Administration defends American industry                   issues such as information technology and physical security.
against injurious and unfair trade practices by admin-
istering the antidumping and countervailing duty
laws of the United States and enforcing other trade            WHAT WE FOUND
laws and agreements negotiated to address such
trade practices.                                      Our inspection revealed a post in transition in the face of key management
                                                    changes and economic uncertainties: a new senior commercial officer had
U.S. and Foreign Commercial Service pro-
                                                  recently arrived in Ankara and a new principal commercial officer in Istanbul.
motes the export of U.S. products and
                                                They faced an array of weaknesses in post operations. We believe that US&FCS
helps small and medium-sized business-
                                              Turkey’s future success will depend on strong post management and administration
es market their goods and services
                                            by both the senior commercial officer in Ankara and the Commercial Service’s Office
abroad. It has 105 domestic
                                          of International Operations (OIO) in Washington.               Our key findings and
offices and 157 overseas posts
                                       recommendations are summarized below.
in 84 countries.
                                   Management of the Post Needs to Be Strengthened

                       Ineffective management practices and oversight in recent years had fostered a number of problems: products and
           services were sometimes untimely and inadequate, reports of export successes were inaccurate, and some performance
appraisals were not prepared in a timely manner. OIO oversight also had been lacking in that the office did not address post problems
or provide sufficient training and development for senior officers.




March 2003/Semiannual Report to Congress                                                                                               19
International Trade Administration



US&FCS Turkey Is Meeting the Needs of                                     recommendation—that it revise its Operations Manual to
Most Customers but Could Do Better                                        explicitly require posts to provide U.S. client confirmation of
                                                                          export successes. (OFFICE OF INSPECTIONS AND
Many of the clients we spoke with during our inspection were              PROGRAM EVALUATIONS: IPE-15370)
pleased with the post’s efforts to support U.S. trade and business
interests in Turkey. Even so, we found that (1) some services and
market research products were delivered late and did not meet
guidelines in the Commercial Service Operations Manual and
(2) reporting on market developments in Turkey was poor—
                                                                          MARKET ACCESS AND
particularly in key sectors like telecommunications and energy,           COMPLIANCE SUCCESSFULLY
which are being privatized.                                               INCREASED STAFF CAPACITY
Financial Operations and Administrative                                   TO IMPROVE MONITORING
Matters Are Generally in Order but                                        AND ENFORCEMENT
Identified Problems Require Attention
                                                                          In response to growing concern over ITA’s ability to monitor and
US&FCS Turkey’s financial management and administrative                   enforce trade agreements, Congress authorized a significant
operations are functioning effectively, but we did note                   increase in funding for trade compliance activities in FY 2001.
deficiencies such as the following: (1) representation                    With these additional funds, ITA’s Market Access and
(entertainment) funds may have been used for nonofficial                  Compliance (MAC) unit added 35 full-time equivalent positions
entertainment, (2) government vehicles may have been used                 under the Trade Compliance Initiative to help monitor and
inappropriately and logs of their use not properly maintained, and        enforce trade compliance agreements.
(3) oversight of the travel card program was inadequate and
procedures not always followed. We also noted problems with               We conducted an audit to determine whether MAC was able to
management of Izmir’s petty cash fund and some costs associated           recruit, hire, and retain staff to fill these positions. Overall, we
with International Cooperative Administrative Support Services            found that MAC was able to do so—attracting staff with varying
(ICASS)8 that could be reduced.                                           degrees of experience and expertise without having to request
                                                                          special hiring authority and without having to offer any other
                                                                          type of recruitment incentives.
US&FCS Describes Actions Taken
                                                                          To fill the 35 new vacancies, the agency promoted internal
The Commercial Service concurred with all but one of our                  candidates; hired from outside the federal government;
recommendations and described actions it is taking to strengthen          reassigned current ITA staff; hired employees from other federal
oversight of its Turkey operations as well as to address the              agencies; and reinstated prior career civil service employees. By
potentially systemic problems we identified with senior                   the end of the fiscal year, selections had been made to fill all 35
commercial officer training and development. At the close of the          job vacancies. (ECONOMICS AND STATISTICS AUDITS
semiannual period it was still considering the one remaining              DIVISION: ESD-15499)




8
 ICASS is the State Department’s system for providing administrative
services—on a cost-sharing basis—to U.S. agencies’ overseas operations.




20                                                                                    U.S. Department of Commerce/Office of Inspector General
                      NATIONAL OCEANIC
                      AND ATMOSPHERIC
                      ADMINISTRATION


T                                   ADDITIONAL IMPROVEMENTS NEEDED IN
       he
       National
       Oceanic and                        NOAA’S "CORPORATE COSTS" PROCESS
Atmospheric Administration
studies climate and global change;          NOAA is the largest agency in the Department of Commerce and has a varied and
ensures the protection of coastal            complex set of program responsibilities. The agency’s combined environmental
oceans and the management of marine            mission—to predict atmospheric changes and manage coastal marine resources—
resources; provides weather services; and       helps ensure sustainable economic opportunities. NOAA’s "corporate costs"
manages worldwide environmental data.             refer to expenses associated with central executive management and policy
NOAA does this through the following                setting and to costs associated with administrative services provided by the
organizations:                                       Office of Finance and Administration (OFA).
National Weather Service reports the weather of               Within OFA, the Office of Budget’s Business Management Fund
the United States and provides weather forecasts              Division is responsible for managing corporate costs. NOAA’s
and warnings to the general public.                            Corporate Board—composed of the Deputy Undersecretary for Oceans
National Ocean Service issues nautical charts;                 and Atmosphere, NOAA’s chief financial officer, and the deputy
performs geodetic surveys; conducts research; and               assistant administrators of the National Marine Fisheries Service;
develops policies on ocean mining and energy.                   National Ocean Service; Office of Oceanic and Atmospheric
National Marine Fisheries Service conducts a                    Research; National Weather Service; National Environmental
program of management, research, and services related           Satellite, Data, and Information Service; and Office of Marine and
to the protection and rational use of living marine             Aviation Operations—is responsible for reviewing and approving the
resources.                                                      corporate-costs budget.

National Environmental Satellite, Data, and                    Corporate costs are funded from a variety of sources: the Procurement,
Information Service observes the environment by               Acquisition and Construction account; the Operations, Research and
operating a national satellite system.                       Facilities account; line office appropriated funds; and an overhead
Office of Oceanic and Atmospheric Research                  charge applied to NOAA’s reimbursable projects as a percentage of total
conducts research related to the oceans and                reimbursements. In FY 2000 corporate costs totaled $153 million—$92.5
inland waters, the lower and upper atmosphere,            million came from either assessments or direct billings to the line office
space environment, and the Earth.                        appropriations; $50 million from the Operations, Research and Facilities
                                                       account Program Support appropriation; and $10.9 million from overhead
Office of Marine and Aviation
                                                     charges applied to NOAA’s reimbursable projects.
Operations operates NOAA’s ships and
aircraft and provides NOAA
programs with trained technical
and management personnel                         PROCESS AND PRACTICES USED TO
from the nation’s seventh                    DEVELOP THE BUDGET
uniformed service.
                                    We conducted a performance audit of the process and practices NOAA used to develop its corporate-
                              costs budgets for fiscal years 2000 and 2001, focusing on NOAA’s management and funding of costs for
                      centrally controlled administrative services. Our objectives were to determine whether (1) the methodologies used
  to distribute the corporate-costs budget throughout NOAA were systematic and rational, (2) the planning process for developing the
annual corporate-costs budget was reasonable, and (3) the deficiencies identified in previous studies had been addressed through
corrective action.




March 2003/Semiannual Report to Congress                                                                                          21
National Oceanic and Atmospheric Administration



Distribution of Cost Assessments Are                                   Previous Studies Identified Problems That
Based on an Inappropriate Methodology                                  Have Yet to Be Fully Addressed

According to its Budget Handbook, NOAA should be funding               NOAA, aware of many of the problems with its budgetary and
most corporate-costs activities by assessing line offices              financial systems, commissioned several studies of these issues.
according to "direct labor rates," that is, the number of full-time    Between 1996 and 1998 several NOAA internal studies resulted
employees. Our audit showed, however, that assessments were            in recommendations regarding accountability and operational
based on what could best be described as a hybrid of historical        issues affecting the corporate-costs process such as tying
practices and direct labor assessments. Unfortunately, neither the     assessments to services received, increasing the involvement of
prescribed direct labor methodology nor the hybrid approach is         top NOAA officials in the process, and enhancing customers’
appropriate because neither results in a fair and transparent          involvement in the process. In 2000 the National Academy of
correlation between costs assessed and services provided.              Public Administration (NAPA), at NOAA’s request, reviewed
                                                                       NOAA’s budget and financial management processes. Its report
                                                                       addressed accountability issues, incorporated issues from
"Direct Billing" Algorithms Are Not                                    NOAA’s previous studies, and made consolidated
Always Reasonable                                                      recommendations to address the problems.
NOAA also funds a portion of corporate-costs activities by
directly billing line offices for special services. A proper direct
billing methodology should trace the services provided to the
                                                                       NOAA’S CORRECTIVE ACTIVITIES
actual associated costs and bill the specific entity benefiting from
those services. Under NOAA’s system, various allocation                NOAA responded to some of the recommendations by
methodologies are used to distribute the "direct" costs to the line    undertaking important improvements including
offices, in some cases to offices that may not have derived any            ■   creating and filling the position of deputy chief financial
benefit from the services at issue. Also, the methodologies                    officer/ director of budget at the Senior Executive
applied different algorithms depending on the services                         Service level,
provided—algorithms that were sometimes inequitable,                       ■   involving the line offices in the budget process,
unreasonable, or inappropriate as well as inconsistent in
                                                                           ■   establishing a budget office division to oversee the corpo-
correlating costs to services received. Consequently there was
                                                                               rate-costs process,
questionable assurance that the line offices were paying an
appropriate and reasonable portion of the costs.                           ■   restructuring NOAA’s budget to fund executive manage-
                                                                               ment and policy direction from Program Support
                                                                               appropriation funds and not from line office assessments,
No Formal Policies and Procedures                                              and
Exist for Governing the Corporate-Costs                                    ■   issuing revised indirect cost policies and procedures.
Budget Process
                                                                       In addition, so that activity-based costing can be used as a
We found that NOAA had no formal, documented policies and
                                                                       methodology for distributing the costs, NOAA contracted with a
procedures for managing the corporate-costs process. Without
                                                                       private firm to define the central administrative services provided
such policies and procedures, there can be no assurance that these
                                                                       to line offices and their associated service costs. The agency has
costs are developed and managed in a consistent and equitable
                                                                       also taken action to establish a Business Management Fund,
manner throughout the budget cycle; also, internal controls are
                                                                       structured as a working capital fund, as the financing mechanism
inadequate to ensure that the corporate-costs budget is properly
                                                                       for the costs.
developed and consistently managed and that costs are
effectively contained. In addition, because there are no formal
                                                                       Despite this progress, NOAA has more to do. In addition to
requirements to create and maintain supporting documentation,
                                                                       addressing the issues outlined in our audit report, the agency
there is no assurance that the information the Corporate Board
                                                                       should develop a formal plan to address, as appropriate, each of
uses to make funding decisions is accurate and fully supported.
                                                                       the as-yet unresolved NAPA report recommendations, which
Another issue concerning the board involves its lack of a charter.
                                                                       were designed to improve accountability, ensure a clear and
Although established in 1999 to provide oversight for the
                                                                       formal requirements process, develop a methodology to
corporate-costs process, no charter identifying board
                                                                       correlate costs to services provided, and convert nonservice
membership, responsibilities, objectives, or activities was
                                                                       activities, currently funded by assessments, to appropriations-
developed. A formal, well-defined charter is key to effective
                                                                       based funding.
internal controls that address cost containment responsibilities
and outline the issues the board must address.



22                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                          National Oceanic and Atmospheric Administration




RECOMMENDATIONS AND THE                                               We audited a sample of indi-
AGENCY’S RESPONSE                                                     vidually billed accounts in
                                                                                                          NOAA—Commerce’s
                                                                      NWS headquarters—evalu-
                                                                      ating transactions made dur-        largest agency—had
Overall, NOAA concurred with the findings and                                                             10,275 travel cardholders
recommendations of our audit, but stated that the report does not     ing the 13-month period
                                                                      from February 2001 through          in December 2001.
adequately acknowledge all the work currently under way and
                                                                      March 2002—to determine             Forty-two percent of
near completion. The response noted that many of the problems
identified in our report covering FYs 2000 and 2001 had been          whether cardholders were            these (4,320) were
corrected for the FY 2002 process and that the Business               complying with the FTR, the         NWS employees whose
Management Fund division is now guided by principles that will        DOC Travel Handbook, and            annualized cash advances
result in converting cost allocation from an assessment-based         NOAA-issued travel regula-          and travel expenses were
methodology to an activity-based methodology. NOAA further            tions and policies, and             estimated at $6.4 million.
stated that it is developing a clear and formal requirements          whether NWS’ internal con-
process for FY 2004 and had                                           trols for the travel card pro-
                                                                      gram were adequate and fully
    ■   established an open corporate-cost development process        implemented. We concluded that most cardholders used their
        in which customers participate and support proposals;         travel cards properly and paid their bills promptly. We did, how-
    ■   created a charter for the Corporate Board (currently          ever, identify several instances of misuse and a number of inter-
        under review by NOAA senior management);                      nal control weaknesses in NWS’ oversight of the program, and
    ■   improved its Corporate Board review process so that it        we made recommendations to resolve these deficiencies.
        now culminates in final decisions early in the fiscal year;       ■   Unallowable Uses Our examination of records for 73
    ■   developed a funds-control process in OFA that includes                cardholders identified 8 who had taken cash advances
        monthly budget reports, adherence to a table of organiza-             when not on official travel, including one who obtained
        tion encompassing OFA’s authorized personnel as well as               advances totaling $20,600, and another who had with-
        publicly reported year-end closeouts; and                             drawn $14,300. We also identified 14 employees who
    ■   completed a comprehensive activity-based costing review               used their cards for personal expenses—ranging from
        of all of OFA’s services that will align services to cus-             dinner to dog kennel fees.
        tomer needs and bill for them accordingly.                        ■   Delinquencies The DOC Travel Handbook requires
                                                                              cardholders to pay monthly balances in full no later than
(SCIENCE AND TECHNOLOGY AUDITS DIVISION:                                      25 calendar days from the closing date of the statement.
STD-14427)                                                                    As of October 1, 2000, 5 of the 536 NWS headquarters
                                                                              accounts were 61 days or more past due, with delinquent
                                                                              balances totaling $7,863. Between October 2000 and
                                                                              December 2001, 15 headquarters cardholders were 61
                                                                              days or more past due on amounts ranging from $6 to
TIGHTER MANAGEMENT                                                            $3,500. However, during our review NWS’ chief finan-
CONTROLS NEEDED FOR                                                           cial officer revised existing procedures for review of
                                                                              delinquent accounts with the result that by December
NWS’ TRAVEL CARD                                                              2001, only 2 NWS accounts were 61 days or more in
PROGRAM                                                                       arrears (with a total balance due of $615).

The Travel and Transportation Reform Act of 1998 and the              NWS concurred with our recommendations that, among other
Federal Travel Regulation (FTR) mandate that federal                  things, it reinforce the importance of adhering to the FTR and the
employees use a contractor-issued travel card to pay expenses         DOC Travel Handbook, take steps to ensure that employees fully
related to official government travel, unless an employee is          comply with these requirements and take action against those
otherwise exempted.                                                   who do not, and require cardholders and their supervisors to
                                                                      annually complete refresher training. The agency subsequently
The Department of Commerce maintains two types of travel card         issued a memorandum instructing cardholders and their
accounts: (1) centrally billed accounts are used by Commerce          supervisors to follow travel card regulations, including those for
agencies to obtain travel services from a commercial travel           new card applications and those for assessing penalties for card
contractor, and the government is liable for these charges; (2)       misuse. NWS noted that the Department, per the DOC Travel
individually billed accounts are issued directly to employees,        Card Program Remedial Action Plan, is revising the existing
who are personally responsible for all charges and payments.          table of penalties and that NWS will require its financial



March 2003/Semiannual Report to Congress                                                                                           23
National Oceanic and Atmospheric Administration



management centers to use the revised table once it is issued.          a range of environmental research, management, and stewardship
(BUSINESS AND TRADE AUDITS DIVISION: BTD-14972)                         activities. Within each of its goals are measures for assessing
                                                                        performance of NOAA programs. Commerce includes the results
                                                                        of these assessments in its annual Performance & Accountability
                                                                        Report, which is prepared, in part, to meet requirements of the
ACCURACY AND                                                            Government Performance and Results Act of 1993.
RELIABILITY OF SOME                                                     As part of our continuing series of performance measurement
NOAA PERFORMANCE                                                        audits, we evaluated measures for two NOAA goals during this
                                                                        last semiannual period—(1) promote safe navigation and (2)
MEASURES ARE                                                            sustain healthy coasts. We assessed NOAA’s methods for
QUESTIONABLE                                                            collecting and reporting performance information and sought to
                                                                        determine whether internal controls over data collection ensured
In pursuing its strategic goal to "observe and manage the Earth’s       accurate, consistent, and reliable reporting. We found that
environment to promote sustainable growth," the Department of           existing internal controls could not always provide such
Commerce relies on the work of the National Oceanic and                 assurance and noted several other deficiencies common to the
Atmospheric Administration. To support the Department’s goal,           measures, including lack of enough relevant detail to make the
NOAA established seven performance goals of its own that focus on       data clear and useful to interested parties.

Performance Goals

                                        Promote Safe Navigation                  Sustain Healthy Coasts

                                                      Measure                                          Measure
                                                                                                   Percent of          Reduced
                                        Percent          Percent of              Number of         U.S. shoreline/     introductions and
                                        reduction in     National Spatial        acres of          inland areas with   effects of invasive
                                        hydrographic     Reference System        coastal habitat   improved ability    species in a total
                                        survey backlog   completed               benefited         to reduce coastal   of six regions
 Common Problems                        (cumulative)     (cumulative)            (cumulative)      hazard impacts      within the U.S.


Results include nonuniform data                                     ●                                     ●

Results include data from outside
reporting period                                  ●                 ●                  ●

Results not reconciled with
supporting documentation                          ●                 ●                  ●                  ●                    ●

Supporting documentation lacking                  ●                 ●                                                          ●

Standard verification/validation
procedures not documented                         ●                 ●                  ●                  ●                    ●

Cumulative resources not linked
with annual funding                               ●                 ●                  ●                  ●

Discussion of verification
procedures unclear                                ●                 ●                  ●                  ●                    ●

Additional disclosures needed                     ●                 ●                  ●                  ●                    ●



24                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                           National Oceanic and Atmospheric Administration



We also identified a number of weaknesses specific to each             SUMMARY OF FINDINGS
measure—for example, NOAA’s FY 2001 reporting of critical
backlog reductions under "promote safe navigation" included            Enforceability of fishery management measures. The
miles surveyed outside the backlog area, did not make clear that       Magnuson-Stevens Act sets 10 national standards for fishery
the results were based on a revised backlog, and counted areas         management plans, but many of the standards address competing
designated for survey by contractors before the surveys were           interests. For example, the councils and NMFS are charged with
completed.                                                             preventing overfishing—usually accomplished by limiting some
                                                                       type of fishing activity—while minimizing the economic impacts
Because the accuracy and reliability of reported information is        of restrictions on fishing communities. In trying to meet the
largely a function of adequate internal controls, NOAA needs to        national standards and regional fishery priorities, the councils
promptly correct internal control weaknesses and inaccurately          often develop complex plans that contain numerous regulatory
stated results. In doing so, it will enhance the credibility and       exemptions, which both confuse fishers and complicate
usefulness of the performance information it reports to Congress,      enforcement.
OMB, and other stakeholders. NOAA concurred with our
recommendations. (FINANCIAL STATEMENTS AUDITS                          OLE involvement in the council planning process. Given
DIVISION: FSD-14998)                                                   OLE’s substantial fisheries enforcement expertise, its
                                                                       involvement in the council planning process is essential to
                                                                       ensuring that enforcement issues are adequately considered early
                                                                       on. Although OLE representatives are not permitted to sit on a
PROACTIVE MEASURES                                                     council, they may seek membership on a council subgroup: each
NEEDED TO IMPROVE                                                      has an advisory panel or law enforcement committee or both.
                                                                       However, the role and influence of these groups vary from one
FEDERAL FISHERIES                                                      council to the next: some meet sporadically, some do not give
ENFORCEMENT                                                            enough focus to enforcement, and some do not consult with the
                                                                       full council early enough to impact final decision making. By
The Magnuson-Stevens Fisheries Conservation and Management             encouraging these groups to meet regularly, seek out multiagency
Act of 1976 placed under federal jurisdiction all living and           membership, adopt a charter to document their purpose, and
nonliving marine resources within 200 miles of the U.S. coastline      request a standing time slot on the full council’s meeting agenda,
in what is now known as the U.S. Exclusive Economic Zone               OLE can help enhance their effectiveness—and its own—in
(EEZ). The act instituted a regional system for allocating             communicating enforcement concerns to the full councils.
harvesting rights to domestic fisheries, and gave responsibility
for fisheries management to the Secretary of Commerce (through         Use of vessel monitoring systems to police closed areas.
the National Marine Fisheries Service) and eight regional              Closing areas to certain fishing activities and equipment has
councils. The councils, along with NMFS, prepare management            proven to be a successful strategy for rebuilding stocks. A
plans that govern domestic fisheries in the EEZ.                       number of council plans require fishing vessels to carry a vessel
                                                                       monitoring system (VMS) so that OLE can monitor fishing
The U.S. Coast Guard and NMFS’ Office for Law Enforcement              activity electronically 24 hours a day, 7 days a week. VMS is
(OLE) share responsibility for enforcing federal fishery               implemented differently across the country. We noted that NMFS
regulations that result from the fishery management council            needs to provide leadership to ensure that lessons are learned and
process. The Coast Guard primarily handles enforcement at sea.         VMS best practices are shared across the councils and NMFS
OLE focuses on shoreside enforcement, which includes dockside          regions. In addition, the high cost of VMS, a general industry
monitoring and investigative work.                                     aversion to such electronic monitoring, and the inequitable
                                                                       distribution of VMS costs have generated some continuing
We assessed not only OLE’s methods of enforcing fishery                resistance to using the technology. Fishers are well aware that
management plans developed by the councils but also the                NMFS shares VMS costs in some areas, pays them entirely in
enforceability of the measures. We examined OLE’s role in the          others, and looks to fishing vessels to bear all costs in still other
council process; the emerging role of coastal states and territories   fisheries. We also raised the issue that scientific interest in VMS
in federal fisheries enforcement; and the status and importance of     data is growing. Because guidelines for collecting research data
information sharing within NMFS and across federal and state           are less stringent than those for gathering enforcement
enforcement agencies. Within each area, we identified a number         information, we were concerned that ships might wind up
of concerns that, taken together, may compromise the                   carrying two sets of VMS equipment—one to collect research,
effectiveness of fisheries enforcement.                                one to collect enforcement information.




March 2003/Semiannual Report to Congress                                                                                              25
National Oceanic and Atmospheric Administration




Enforceability of Selected Fishery Management Measures

                                                                                                                Methods of Fisheries Enforcement




                                                                                                                                                         Complex investigations
KEY
✕         Impossible or Impractical
●         Reasonable




                                                                                                                 At-sea vessel
★         Excellent




                                                                                                                                 At-sea air


                                                                                                                                              Dockside




                                                                                                                                                                                  VMS
FISHERY MANAGEMENT MEASURES

Closed Seasons - Specific times of the year during which fishing is prohibited.                                  ★               ●            ●          ●                        ●

Days -At-Sea - A specified number of days that a fishing vessel is absent from port to
fish for, possess, or land regulated species.                                                                    ✕               ✕            ●          ★                        ★

Fully Closed Area - Areas of the sea where all vessels are prohibited.                                           ★               ★            ✕          ✕                        ★

Gear-Restricted Areas - Areas where the use and/or possession of specific fishing gear
is prohibited.                                                                                                   ●               ●            ✕          ✕                        ✕

Gear Regulations - Prohibitions or requirements related to gear. "Gear" includes the
methods and tools to harvest the resource, vessels, horsepower, number of traps, and
gear modifications used to protect certain marine species (e.g., turtle excluder devices).                       ★               ✕            ●          ●                        ✕

Individual Fishing Quota - Allocation of a specified amount of particular fish species to
an individual, vessel, or group of vessels.                                                                      ✕               ✕            ★          ●                        ✕

Limiting Amount/Percent Bycatch Landed - Limits on the amount or percentage of
nontargeted species allowed on board a fishing vessel.                                                           ✕               ✕            ✕          ✕                        ✕

Permits - Prohibits fishing for specific species unless authorized by the issuance and
possession of a permit.                                                                                          ★               ✕            ★          ★                        ✕

Prohibiting Bycatch Retention - Prohibits the retention of nontargeted species aboard
fishing vessels.                                                                                                 ●               ✕            ★          ●                        ✕

Prohibited Species - Prohibits possession or retention of specific species.                                      ●               ✕            ★          ●                        ✕

Record Keeping and Reporting - Tracks fishing effort and catch as input to future
management decisions (e.g., vessel logbooks).                                                                    ●               ✕            ●          ★                        ✕

Size Restrictions - Prohibits possession of fish below or above a specified size.                                ★               ✕            ★          ●                        ✕

Bag/Possession Limits - Specifies amount of a particular species that may be landed
per trip. Low volumes are generally measured by numbers of fish that can be easily
counted on-board.                                                                                                ●               ✕            ★          ●                        ✕

Trip Limits - Specifies amount of a particular species that may be landed per vessel
per trip.                                                                                                        ✕               ✕            ●          ★                        ✕

Vessel Monitoring System - Requires vessels to keep a positioning transmitter
(transponder) on board.                                                                                          ★               ✕            ●          ★                        ★

Source: OLE responses to OIG questionnaire, documentation from the Coast Guard and Atlantic States Marine Fisheries Commission, and interviews.



26                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                           National Oceanic and Atmospheric Administration



We recommended that NMFS become more proactive in                       fisheries data should be available to and circulated among all
addressing fishers’ concerns, develop a strategy for implementing       relevant management and enforcement organizations, including
VMS in the various NMFS regions, and establish minimum                  the various components of NMFS and federal and state
standards that would satisfy both scientific and enforcement            agencies.
needs for future VMS applications.
                                                                        NMFS’ regional offices, science centers, and fishery observer
Joint enforcement agreements. Congress gave NMFS $15 mil-               programs collect a wealth of fishery data within each region—
lion in fiscal year 2001 to fund state assistance with federal          an important resource for identifying potential violations.
fisheries enforcement in the EEZ. OLE transferred these funds to        However, OLE agents cannot quickly access and analyze this
participating states via joint enforcement agreements and currently     data because NMFS’ numerous data collection systems do not
has such agreements with 20 coastal states and territories. OLE         interface, and some observer program managers are reluctant
relies on joint agreements to fill some gaps left by shifting federal   to share data collected for scientific purposes with enforcement
enforcement priorities. OLE had to develop the program and              officials. Data sharing between NMFS and the Coast Guard is
allocate funding under considerable time constraints and now            also hampered by incompatible IT systems. And information
needs to prepare clear and specific guidance about the program,         exchange between these agencies and their state enforcement
including federal fishery enforcement priorities and funding            counterparts is significantly limited by the Magnuson-Stevens
options and processes. It also needs to adequately verify and           Act.
document state-submitted performance information.
                                                                        NOAA fully concurred with our recommendations and is taking
Inter- and intra-agency information sharing and coop-                   a number of actions to address our concerns. (INSPECTIONS
eration. To have maximum impact on enforcement efforts,                 AND PROGRAM EVALUATIONS: IPE-15154)




March 2003/Semiannual Report to Congress                                                                                            27
                      TECHNOLOGY
                      ADMINISTRATION

                              NATIONAL INSTITUTE OF STANDARDS

T
       he
       Technology
                                    AND TECHNOLOGY
       Administration
serves the needs of technology-       As part of its efforts to spur technological development, NIST administers the Advanced
based industry, advocates federal       Technology Program (ATP) to provide financial assistance through cooperative
actions and policies to speed the          agreements, with the goal of transferring cutting-edge technology to industrial uses.
transfer of technology from the               During this semiannual period we audited costs claimed under three ATP awards.
laboratory to the marketplace, and              Two of the audits questioned a total of $11.5 million in costs claimed, of which
removes barriers for commercializing              $6.5 million were federal funds. The remaining audit recommended that
new technologies. It includes three                 $300,000 in federal funds be put to better use. Summarized below are the
major organizations:                                  results of the audits.

Office of Technology Policy works to raise
national awareness of the competitive challenge,
                                                               Audit of California Joint Venture
promotes industry/government/ university
partnerships, fosters quick commercialization of               Questions $9.5 Million in Costs
research results, promotes dedication to quality,               Claimed by the Administrator
increases industry’s access to and participation in
foreign research and development, and encourages                NIST awarded an ATP cooperative agreement to a San Jose,
adoption of global standards.                                   California, semiconductor manufacturing corporation as the
National Institute of Standards and Technology                  administrator of a five-member joint venture established to develop a
promotes U.S. economic growth by working to                     special technology for next-generation lithography. The 4-year award
develop and apply technology, measurements, and                 period was from May 1999 through May 2003; total estimated costs
standards. NIST manages four programs: NIST                    for the project were $41,596,073, with the federal government’s share
Laboratories, the Advanced Technology Program, the             not to exceed $18,143,595, or 43.6 percent of allowable costs.
Manufacturing Extension Partnership program, and
the Baldrige National Quality Program.                        We conducted an interim audit of the first 3 years of the award, for which
                                                             total joint venture costs of $29,453,333 were claimed, including
National Technical Information Service is a                 $27,538,680 claimed by the administrator.
self-supporting agency that promotes the
nation’s economic growth and job creation by             Our audit questioned $13,127,470 of the administrator’s costs, consisting of
providing access to information that                   $9,497,053 claimed for equipment produced by the corporation, which was
stimulates innovation and discovery.                 charged to the award at commercial sales prices instead of actual production cost;
NTIS accomplishes this mission                     $3,599,707 in indirect costs that were calculated using an unreasonable
through information collection and              allocation method; and $30,710 in material and supplies costs that were not
dissemination to the public and             adequately supported.
through information and
production services to                We also found that the administrator’s financial management system did not comply with federal
federal agencies.                 requirements. The primary deficiency of the system involved inconsistent treatment of project costs
                          within the division performing work on the project, which resulted in the nearly $3.6 million of questioned
                   indirect costs noted above. We recommended that NIST disallow all questioned costs, recover $5,705,751 in
       excess federal disbursements, and take appropriate action to ensure that the administrator implements an adequate financial
management system. (DENVER REGIONAL OFFICE OF AUDITS: DEN-14219)




28                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                                     Technology Administration




$2 MILLION IN INDIRECT COSTS                                           Our limited-scope audit of the award revealed that the firm had
QUESTIONED IN AUDIT OF JOINT                                           drawn down approximately $781,000 in award funds between
                                                                       October and December 2002, but used only $475,000 to cover
VENTURE ADMINISTRATOR                                                  project costs and could not account for the $306,000 balance.
In 1995 NIST made a $21.3 million ATP award to a Pittsburgh            We recommended that NIST require the company to immediately
nonprofit corporation acting as administrator of a joint venture       repay the government for $306,447 in award funds that were
developing a searchable multimedia database for the healthcare         prematurely drawn down and designate the company as a “high-
industry. The award required a combined cost share of $30              risk” organization, thereby allowing it to obtain funding only on
million from joint venture members, bringing total estimated           a reimbursement basis. (ATLANTA REGIONAL OFFICE OF
project costs to $51.3 million. Over the 5-year award period, the      AUDITS: ATL-15922)
administrator claimed $11.7 million as its total project
expenditure, consisting of $8.6 million in direct costs and $3.1
million in indirect costs.

A September 2002 OIG audit report (ATL-13993-1, see                    AUDIT OF NTIS’ FY 2002
September 2002 Semiannual Report to Congress, pages 41-42)             FINANCIAL STATEMENTS
addressed the administrator’s claim for direct costs: we
questioned approximately $3.3 million of the $8.6 million              The audit of NTIS’ FY 2002 financial statements marked the 10th
claimed. During this semiannual period, we audited the                 consecutive year of unqualified opinions for the bureau and
administrator’s indirect costs for the award period, finding that of   showed continued improvements in financial management: there
the $3.1 million charged to the award, more than $2 million in         were no reportable conditions in the bureau’s internal control
indirect costs was improperly claimed. We also found that the          over financial reporting and no instances of noncompliance with
administrator had claimed indirect costs on its reimbursement          laws and regulations.
requests to NIST that it knew to be greater than the actual costs
incurred. Our specific audit findings were as follows:
    ■   For the 3-year period from July 1996 to June 1999, the         WEAKNESS IN GENERAL
        administrator claimed indirect costs using a provisional       IT CONTROLS
        rate that resulted in higher claims than its actual costs
        could support. We questioned costs of $1,887,150 for           The auditors’ assessment of IT controls associated with NTIS’
        this period.                                                   information systems found that NTIS had resolved four of five
    ■   For the balance of the award period, the administrator         weaknesses identified in FY 2001 but noted new weaknesses in
        used indirect cost rates approved by the Department of         five of the six areas noted in the Federal Information Systems
        Health and Human Services. However, in our September           Controls Audit Manual (FISCAM). Those areas are entitywide
        2002 audit report we reduced the total direct cost base        security program planning and management, access control,
        used to calculate indirect costs for that period, resulting    application software development and change control, system
        in additional questioned indirect costs of $145,563.           software, and service continuity.

We recommended that NIST disallow a total of $2,032,713 in             These internal control weaknesses threaten the security of NTIS’
questioned indirect costs and recover $869,268 in excess federal       data, programs, and hardware, and could have a negative
funds disbursed to the administrator corporation. (ATLANTA             effect on the financial statements of both the bureau and
REGIONAL OFFICE OF AUDITS: ATL-13993-2)                                the Department. (FINANCIAL STATEMENTS AND AUDITS
                                                                       DIVISION: FSD-15212)


$300,000 IN FEDERAL FUNDS
                                                                       COST-BENEFITS OF NTIS’
PREMATURELY DRAWN DOWN
BY ATP RECIPIENT                                                       NEW BUSINESS MODEL
                                                                       REMAIN QUESTIONABLE
In October 2001 NIST awarded a $1.9 million ATP cooperative
agreement to a California engineering firm to develop a unique         As a self-supporting agency, the National Technical Information
high-speed manufacturing process for a new generation of               Service must generate revenue to cover its operating costs. To do so,
electrical conductors for power transmission lines.                    it leases its database of unclassified scientific, technical, engineering,




March 2003/Semiannual Report to Congress                                                                                                   29
Technology Administration



and business-related information to vendors, and charges users for its   methods. As a result, NTIS had no hard data to support its
products and services. In an effort to increase demand for, access to,   projections. Even so, anticipated revenue from the virtual library
and income from its products, NTIS developed a new business              during its first 3 years of operation is so low that it will do little
model (see figure) that expands products and services available on       to improve NTIS’ overall financial position in the short term.
the Internet via a “virtual library.” This new component offers          Whether the new virtual library will have the anticipated or any
abstracts and downloads of reports dated 1997 and later.                 positive impact in the long run remains unclear.

We reviewed the financial viability of the new business model            In response to our concerns, NTIS has established procedures for
and the soundness of its cost and revenue projections, and               monthly assessments of the success of the model and feasibility
determined that the model itself was built on assumptions derived        of its projections. (FINANCIAL STATEMENTS AUDITS
from intuitive estimates rather than verifiable forecasting              DIVISION: FSD-15100)


  OLD BUSINESS MODEL                                                       NEW BUSINESS MODEL
  NTIS Help Desk: Accepts mail, phone, fax, or e-mail                      Same
  orders from the general public.
  Database lease arrangements:
  a. Commercial entities that pay NTIS annual lease fees and               Same
     40% of its customer usage fees.
  b. Commercial entities that pay NTIS 60% of its customer                 Same
     usage fees. No annual lease fees paid.
  c. Government agencies that have free access to the                      Same
     database for internal use.
  d. Universities that use the database for internal use only.             Same
     Pay NTIS annual lease fees only.
  Web access to database: Citations and ordering information               Same
  on holdings from 1990 to present are available at the
  NTIS web site.
                                                                           NEW SERVICE: Virtual library on NTIS’ web site.
                                                                           Fully annotated post-1996 portion of the NTIS
                                                                           collection provides downloads of reports available in
                                                                           electronic format and links to actual reports offered for
                                                                           free at other agencies’ web sites.




30                                                                                   U.S. Department of Commerce/Office of Inspector General
                      UNITED STATES PATENT AND
                      TRADEMARK OFFICE

                       AUDIT OF USPTO’S FY 2002

T
       he                      FINANCIAL STATEMENTS
       United
       States Patent             UPSTO received an unqualified opinion on its FY 2002 financial statements from the independent
and Trademark                     certified public accounting firm that conducted the audit. The audit identified no reportable
Office administers the             conditions in its internal control over financial reporting or instances of noncompliance with laws
nation’s patent and
                                     and regulations. USPTO has received clean opinions for the last 9 years.
trademark laws. Patents are
granted and trademarks
registered under a system
intended to provide incentives
                                        INFORMATION TECHNOLOGY CONTROLS
to invent, invest in research,
commercialize new technology,           The auditors’ review of the bureau’s IT controls against the six FISCAM criteria identified
and draw attention to                   two  new weaknesses in entitywide security program planning and management and one
inventions that would                  unresolved  issue from FY 2001. A total of six new weaknesses were noted in the areas of
otherwise go unnoticed.                access control, change control, and service continuity. (USPTO had fully resolved the other
USPTO also collects,                  two  IT issues from  FY 2001, which were in the areas of security controls and unauthorized
assembles, publishes, and           access.)  (FINANCIAL      STATEMENTS AND AUDITS DIVISION: FSD-15213)
disseminates
technological
information
disclosed in
patents.




March 2003/Semiannual Report to Congress                                                                                         31
                      DEPARTMENT-WIDE
                      MANAGEMENT

                           OFFICE OF THE SECRETARY’S PURCHASE CARD

T
        he
        United
                                   PROGRAM NEEDS STRONGER MANAGEMENT
        States                       OVERSIGHT, IMPROVED COMPLIANCE
Department of Commerce
promotes job creation and               The Commerce Department’s purchase card program, established more than 15 years ago,
improved living standards for all        is intended to expedite and simplify small purchases by reducing procurement-related
Americans by creating                      administrative costs and improving management and internal controls. Over the years,
infrastructure that fosters economic         purchase cards at the Department have become the primary vehicle for making small
growth, technological competitiveness,        purchases: in FY 2001, for example, 91.1 percent of Commerce’s 364,345 small
and sustainable growth. The Department         purchases were charged to these cards. However, with the simplified process has
has three strategic goals:                       come greater opportunity for fraud and abuse, as staff who monitor these
                                                  purchases now scrutinize them after the fact rather than approve them in advance.
Goal 1: Provide the information and the
framework to enable the economy to                 The Department’s Office of Acquisition Management is charged with overseeing
operate efficiently and equitably.                  administration of the purchase card program within Commerce and, in turn, has
                                                    delegated that authority to the Head of the Contracting Office (HCO) for each of
Goal 2: Provide the infrastructure                  its operating units. The Commerce Bankcard Center, in Kansas City, Missouri,
innovation to enhance American                     is responsible for maintaining purchase card data for all Commerce units,
competitiveness.                                   reporting on Department-wide program activity, and administering other
                                                  program oversight and support functions. HCOs, the Commerce Bankcard
Goal 3: Observe and manage the Earth’s           Center, approving officials, and cardholders all share responsibility for ensuring
environment to promote sustainable              that purchase card use complies with requirements of the Federal Acquisition
growth.                                        Regulation (FAR) and Commerce Acquisition Manual.

The Department has also established           From January through August 2002 we audited the Office of the Secretary’s (O/S)
a Management Integration Goal               purchase card program to assess its compliance with departmental policies and proce-
that is equally important to all          dures and federal laws and regulations. While we noted no evidence of cardholder misuse
bureaus: Strengthen                     of funds, we did find instances of noncompliance with provisions of the Commerce
management at all                    Acquisition Manual. Taken together, these weaknesses increase the program’s vulnerability to
levels.                           fraud and abuse.

                            O/S generally agreed with the
                       recommendations we made to address our
              concerns and has initiated action in response to
them. Mandatory refresher training for all purchase card holders
and approving officials will be provided to ensure they
understand the various requirements of the Commerce
Administrative Manual. In addition, among other things, O/S
will review random samples of cardholder accounts on a
quarterly basis and report findings of noncompliance; conduct
annual reviews of the program; and adopt procedures to ensure
that purchases made for entertainment purposes receive prior
written approval. Finally, O/S has taken the lead in establishing
an intra-departmental cross-functional team intended to further     Source: FY 2002 Performance & Accountability Report: American Jobs, American
strengthen not only the Department’s purchase card program, but     Values. 2002. U.S. Department of Commerce, p. 381.



32                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                                           Department-Wide Mangement



also its travel and fleet card programs. (BUSINESS AND                                ■   Integrated Financial Management System Commerce
TRADE AUDITS DIVISION: BTD-14971)                                                         still does not fully comply with OMB requirements for a
                                                                                          single, integrated financial management system, although
                                                                                          progress was made during FY 2002, most notably by
                                                                                          NOAA, which converted its legacy system to CAMS in
AUDIT OF DEPARTMENT’S                                                                     October 2002. However, its accounting system for the
                                                                                          audit period, as well as that operated by NIST, was not
FY 2002 CONSOLIDATED                                                                      integrated and required numerous manual adjustments.
FINANCIAL STATEMENTS                                                                      These two systems process their own financial transac-
                                                                                          tions and those of three other bureaus (NOAA handles
The Department received an unqualified opinion on its                                     BIS; NIST handles NTIA and the Technology
consolidated financial statements9 for FY 2002—the fourth                                 Administration). Together, these bureaus accounted for
consecutive year for this achievement. The independent certified                          72 percent of the Department’s total consolidated assets
public accounting firm that performed the audit noted continuing                          as of September 2002. The auditors noted that improving
improvements in Department-wide financial management and                                  overall system integration will be key to the
progress toward eliminating weaknesses identified in prior years.                         Department’s ability to meet expedited financial report-
                                                                                          ing due dates in future years. Commerce expects to have
The auditors found that the Department had resolved weaknesses                            CAMS fully implemented by October 2003 and expects
in financial reporting capabilities identified at several operating                       that CAMS, when interfaced with the Commerce
units in FY 2001 and had moved closer to an integrated financial                          Corporate Database, will bring the Department into sub-
system, having made substantial progress in deploying CAMS at                             stantial compliance with federal requirements for a
NOAA. However, they noted several problems in the                                         single, integrated financial management system.
Department’s internal control over financial reporting that, taken                    ■   Automated Budgetary Controls The legacy systems
together, constitute one material weakness and one reportable                             operated by NOAA and NIST did not have procedures or
condition. And they cited several instances of noncompliance                              controls to prevent bureau officials from overobligating
with laws and regulations.                                                                funds. The bureaus therefore monitored funding avail-
                                                                                          ability manually but at points in the process that did not
                                                                                          prevent overobligations.
INTERNAL CONTROL OVER
FINANCIAL REPORTING                                                               In addition to the material weakness in internal control, the
                                                                                  auditors noted the following reportable condition:
The conditions that constitute the material weakness are                              ■   Accounting for Personal Property NOAA, which
as follows:                                                                               maintains $3.8 billion of the Department’s $4.5 billion
     ■   General IT Controls Despite corrective actions to                                in personal property, was found deficient in the
         address IT vulnerabilities, the auditors noted that signifi-                     following areas:
         cant weaknesses still exist in Commerce’s IT control                                 ●   Construction work in progress (CWIP)—NOAA
         environment—most notably related to information securi-                                  identified $171.5 million in project costs that had
         ty. As was the case in last year’s audit, the Department’s                               been incorrectly reported as expenses in prior
         IT controls over financial systems are vulnerable in the                                 years; failed to adjust its CWIP balances by $2.6
         six areas outlined in GAO’s Federal Information System                                   million to reflect overhead costs; included two
         Controls Audit Manual: entitywide security program plan-                                 projects in both the CWIP and real property
         ning and management; access controls; application                                        accounts; failed to transfer a completed project
         software development and change control; system soft-                                    from the in-progress account and to remove an
         ware; segregation of duties; and service continuity.                                     abandoned project from its CWIP balance; classi-
         These weaknesses threaten the integrity, confidentiality,                                fied as CWIP, projects that were not; and for six
         and availability of financial data processed by                                          projects, did not adequately explain or correctly
         departmental systems.                                                                    post CWIP reconciliations.
                                                                                              ●   Personal property ledgers—Unexplained differ-
9
                                                                                                  ences totaling approximately $3 million existed
  The consolidated statements cover all reporting entities within Commerce.
                                                                                                  between NOAA’s general and personal property
However, two of those entities—NTIS and USPTO—were also audited seper-
ately; they recieved unqualified opinions on their FY 2002 financial statements                   subsidiary ledgers, as did inaccuracies in sched-
as well (see pages 29 and 31, respectively).                                                      ules that roll forward personal property balances.




March 2003/Semiannual Report to Congress                                                                                                         33
Department-Wide Mangement



            ●   Capital leases—NOAA revised its lease determi-              ■   OMB Circular A-25, User Charges As noted in prior-
                nation worksheets for existing capital asset leases             year audits, ITA did not fully recover the total cost of
                but did not maintain adequate documentation to                  providing certain goods and services.
                support the adjustments or properly review the              ■   Federal Financial Management Improvement Act
                lease calculations. It thus recorded incorrect values           (FFMIA) of 1996 The Department’s lack of a single,
                of assets acquired through capital leases that ulti-            integrated financial management system, inadequate
                mately required adjustments of $1.7 million to                  budgetary controls, and weaknesses in IT controls ren-
                personal property capital lease accounts and $4                 dered Commerce noncompliant with FFMIA’s
                million to capital lease liabilities.                           requirements for financial management systems.

                                                                        The appropriate departmental managers reviewed and agreed
                                                                        with all of the findings and recommendations contained in the
COMPLIANCE WITH LAWS
                                                                        consolidated audit report.
AND REGULATIONS
                                                                        Section 803 of FFMIA requires agencies that are not in compliance
During FY 2002, the Department’s financial management                   with the act to prepare a remediation plan outlining actions to
procedures and systems were noncompliant with the following             achieve compliance. The Department prepared such a plan in FY
federal laws and regulations:                                           2002 to address noncompliance issues identified in the FY 2001
    ■   OMB Circular A-11, Preparation and Submission of                audit. It intends to update the plan to reflect its progress in moving
        Budget Estimates NOAA again did not fully fund its              toward compliance. Section 804(b) requires OIG to notify Congress
        capital leases during FY 2002, which is contrary to OMB         when the Department does not meet the plan’s intermediate target
        requirements that agencies have sufficient budgetary            dates for implementing actions. We did not identify any instances in
        resources up-front to cover the present value of lease          which Commerce failed to meet these dates. (FINANCIAL
        payments for capital assets and lease purchases.                STATEMENTS AND AUDITS DIVISION: FSD-15214)


  Reported Issue in FY 2001                                               Status in FY 2002
                                                              Material Weakness
  Lack of a single, integrated financial
  management system and weak IT controls.                                 Both issues continue to constitute a material weakness.
                                                            Reportable Condition
  a. Weak financial reporting capabilities at Census, EDA,                a. Resolved.
     and NIST.
  b. Extensive reconciliations needed to resolve errors in                b. For Census, no longer a reportable condition. For NOAA,
     NOAA (CWIP) and Census data provided for inclusion in                   weakness persists and combines with other property-related
     departmental financial sheets.                                          matters to constitute a reportable condition.
  c. Nonautomated budget controls.                                        c. Weaknesses persist and combine with the material weakness
                                                                             regarding the financial management system.




34                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                           Department-Wide Mangement




PREAWARD FINANCIAL                                                                                                ATP
ASSISTANCE SCREENING                                                                                OMB         Program-
                                                                                                    A-133        Specific
As part of our ongoing emphasis on prevention of fraud, waste,        Report Category               Audits       Audits        Total
and abuse, we continue to work with the Office of Executive
Budgeting and Assistance Management, NOAA and NIST grant              Pending (October 1, 2002)       42            52           94
offices, and EDA program offices to screen the Department’s
                                                                      Received                        70            78          148
proposed grants and cooperative agreements before they are
awarded. Our screening serves two functions: it provides              Examined                        95            47          142
information on whether the applicant has unresolved audit
findings and recommendations on earlier awards, and it identifies     Pending (March 31, 2003)        17            83          100
any negative financial or investigative history on individuals or
organizations connected with a proposed award.                      The following table shows a breakdown, by bureau, of the nearly
                                                                    $138 million in Commerce funds audited.
During this period we screened 525 proposed awards. For 20 of
the awards, we found major deficiencies that could affect the         Bureau                                                 Funds
ability of the prospective recipients to maintain proper control
over federal funds. On the basis of the information we provided,      EDA                                           $ 48,417,099
the Department delayed the 20 awards. (OFFICE OF AUDITS)
                                                                      MBDA                                                  597,874
  Preaward Screening Results                                          NIST*                                              68,628,281
                                                Award                 NOAA                                                3,643,497
Results                               Number         Amount           Office of the Secretary                               337,606
Awards delayed to resolve concerns         20       $6,316,699        Multiagency                                        15,125,738
                                                                      Agency not identified                                 802,428
                                                                      Total                                         $ 137,552,523
NONFEDERAL AUDIT                                                    * Includes $62,352,799 in ATP program-specific audits.
ACTIVITIES                                                          We identified a total of $2,513,392 in questioned costs. In most
                                                                    reports the subject programs were not considered major
In addition to undergoing OIG-performed audits, certain
                                                                    programs; thus the audits involved limited transaction and
recipients of Commerce financial assistance are periodically
                                                                    compliance testing against laws, regulations, and grant terms and
examined by state and local government auditors and by
                                                                    conditions. The 18 reports with Commerce findings are listed in
independent public accountants. OMB Circular A-133, Audits of
                                                                    Appendix B-1. (ATLANTA AND DENVER REGIONAL
States, Local Governments, and Non-Profit Organizations, sets
                                                                    OFFICES OF AUDITS)
forth the audit requirements for most of these audits. For-profit
organizations that receive Advanced Technology Program funds
from NIST are audited in accordance with Government Auditing
Standards and NIST Program-Specific Audit Guidelines for ATP
                                                                    QUALITY CONTROL REVIEWS
Cooperative Agreements, issued by the Department.                   OF SINGLE AUDITS

We examined 142 audit reports during this semiannual period to      The Single Audit Act requires that state and local governments
determine whether they contained any audit findings related to      and nonprofit organizations expending $300,000 or more in
Department programs. For 115 of these reports the Department        federal financial assistance in a single year be audited in
acts as oversight agency and monitors the audited entity’s          accordance with the act and its implementing regulations, OMB
compliance with OMB Circular A-133 or NIST’s program-               Circular A-133. Single audits are generally conducted by either
specific reporting requirements. The other 27 reports are from      state audit agencies or private certified public accounting firms
entities for which other federal agencies have oversight            and play an integral role in the government’s efforts to provide
responsibility. We identified 18 reports with findings related to   oversight and ensure accountability for federal assistance funds.
the Department of Commerce.                                         As the audit oversight agency for the Department of Commerce,




March 2003/Semiannual Report to Congress                                                                                        35
Department-Wide Mangement



we conduct quality control reviews (QCRs) of selected single         violations in fiscal year 2000. (DENVER REGIONAL OFFICE
audits performed on organizations that receive most of their         OF AUDITS: DEN-15507)
funding from the Department. The objective of a QCR is to
determine whether the nonfederal audit was conducted in
accordance with Government Auditing Standards and Circular A-        Single Audits Not Performed Because CPA
133 requirements.                                                    Firm Miscalculated Federal Expenditures

Responding partly to recent revelations of serious lapses on the     Our QCR of the fiscal years 2000 and 2001 audits for an EDA
part of public accounting firms, we expanded our QCR program         grantee in Central Texas disclosed that the public accounting firm
during this semiannual period, conducting quality control            had incorrectly calculated federal expenditures for an EDA
reviews of seven single audit engagements. We selected for           revolving loan fund and, consequently, did not conduct the
review the audits of five organizations that administer EDA          required single audits. As a result, (1) the Schedule of
revolving loan funds because RLFs are particularly vulnerable to     Expenditures of Federal Awards was not prepared and presented,
fraud, waste, and abuse. The remaining two QCRs examined             (2) the RLF was not tested as a major program or for adequate
single audits performed for recipients of NIST Manufacturing         internal controls, (3) no risk assessment was conducted, and (4)
Extension Partnership funds.                                         the audits were not submitted to the Federal Audit Clearinghouse.
                                                                     (DENVER REGIONAL OFFICE OF AUDITS: DEN-15508-1)
We found serious deficiencies in the quality of the single audits
performed by the CPA firms and made appropriate                      The same CPA firm audited an economic development
recommendations to remedy them. The following summarizes             organization with geographic boundaries crossing the Arkansas
our findings for each of the QCRs.                                   and Texas state line, which was the recipient of an EDA revolving
                                                                     loan fund grant. Once again, we found that the firm had
                                                                     incorrectly calculated the organization’s RLF federal
CPA Firm Performs Substandard Audits of                              expenditures and did not include the RLF in its single audit,
Nebraska Organization                                                resulting in the same auditing and reporting deficiencies
                                                                     discussed above.       (DENVER REGIONAL OFFICE OF
A quality control review of a public accounting firm’s fiscal year   AUDITS: DEN-15508-2)
2000 and fiscal year 2001 audits of an EDA grantee in Nebraska
found that, while the firm had conducted the audits according to
generally accepted auditing standards, the audits were               CPA’s Deficient Internal Controls Review
substandard for purposes of meeting the Single Audit Act and A-      Fails to Detect Significant Problems
133 requirements. Single audits require additional audit
procedures to assess the adequacy of internal controls over          Our QCR of the fiscal year 2001 single audit for an EDA grantee
federal funds and to conduct substantiative testing of support for   in Western Pennsylvania found that the CPA firm auditing the
costs charged to major federal programs. The firm failed to          corporation did not properly evaluate internal controls for 2 of
perform any of the required procedures. (DENVER REGIONAL             the 14 compliance requirements, resulting in internal control
OFFICE OF AUDITS: DEN-15506)                                         deficiencies not being identified as either reportable conditions or
                                                                     material weaknesses. In addition, the CPA firm failed to use the
                                                                     required A-133 Compliance Supplement to plan and conduct the
Inadequate Audits of South Dakota                                    audit, so that significant audit findings were not appropriately
Grantee Fail to Disclose Federal Reporting                           identified or disclosed. We also determined that the CPA firm’s
Deficiencies                                                         working papers required significant improvements to be fully
                                                                     compliant with the standards of both the American Institute of
Our quality control review of the fiscal year 2000 and fiscal year   Certified Public Accountants and Government Auditing
2001 single audits of a South Dakota organization supported by       Standards. (ATLANTA REGIONAL OFFICE OF AUDITS:
grants from EDA and NTIA found that, although the independent        ATL-15546)
auditing firm’s working papers supported its audit reports, the
audits were technically deficient in two respects: (1) the
schedules of federal awards expenditures were prepared               Substantial Questioned Costs Go
improperly and did not reconcile to the organization’s financial     Unreported Because of Deficient Audit
statements; and (2) the firm had not conducted a sufficient
assessment of the organization’s compliance with federal             Our quality control review disclosed that a CPA’s audit of a
reporting requirements, and therefore failed to detect or disclose   Minnesota nonprofit organization operating a NIST MEP




36                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                           Department-Wide Mangement



project was substandard and contained significant audit              Substandard Audit Fails to Disclose
deficiencies, including the failure to disclose certain reportable   Noncompliance with Federal Regulations
conditions involving federal financial reporting. Specifically,
the audit failed to disclose the organization’s improper cost        A quality control review of a Connecticut nonprofit corporation’s
allocation and labor distribution system—which resulted in           fiscal year 2000 single audit revealed that the CPA firm’s audit
more than $1.3 million in questioned costs—or its unreported         was substandard and did not disclose multiple instances of
income—which amounted to more than $300,000. In addition,            noncompliance with federal regulations, including the
the CPA firm did not comply with all applicable review               corporation’s failure to report $1,830,577 of program income,
requirements set forth in the Circular A-133 Compliance              inaccurate reporting of program costs, inaccurate accounting for
Supplement. (DENVER REGIONAL OFFICE OF AUDITS:                       $177,736 in service provider discounts, and an unallowable
DEN-15500)                                                           $50,000 stock purchase. (DENVER REGIONAL OFFICE OF
                                                                     AUDITS: DEN-15501)




March 2003/Semiannual Report to Congress                                                                                         37
          OF INSPECTOR G
      ICE               ENE
    FF                     RA
                                                OFFICE OF
O




                             L




                                                INSPECTOR GENERAL
U.




     .D
    S




          EP
            AR
              TM
                   E NT
                          OF CO M M E R C E




                                              OIG LOGO UNVEILED

T
        he
        mission of                 This Semiannual Report to Congress is the first
        the Office of                 to carry the Office of Inspector General             IC E OF INSPECTOR GE
                                        emblem—our newly developed visual               FF                               NE
Inspector General is to to                                                                                                   RA




                                                                                       O
promote economy, efficiency,              identifier that symbolizes our duty                                                    L
and effectiveness and detect                to promote   economy,     efficiency,
and prevent waste, fraud, abuse,              and effectiveness, and prevent
and mismanagement in the                       and detect fraud and abuse in




                                                                                         U.
programs and operations of the                  programs and operations of all
                                                                                           .D




                                                                                           S
Department of Commerce. Through                  the bureaus and units of the U.S.            EP
its audit, inspection, performance                Department of Commerce. We                     AR
                                                  chose   the   emblem’s      design,  which         TM
evaluation, and investigative efforts,                                                                   E NT
OIG proposes innovative ideas and                 differs markedly from other Commerce                          OF CO M M E R C E
constructive solutions that lead to                bureau emblems, to convey our unique role within
positive internal and external changes            the  Department and our combined auditing, evaluative, and investigative duties.
for the U.S. Department of Commerce.              Commerce       activities encompass the gamut of public and economic interests
By providing timely, useful, and                  worldwide—from       measuring population growth and well-being to monitoring natural
reliable information and advice to               resource  management      to supporting national and global commercial and manufacturing
departmental officials, the                     endeavors.     Our   emblem     depicts this all-encompassing range of activities and our
administration, Congress, and the              responsibility  for assessing   them.  The emblem will appear on our publications and other
public, OIG's work helps improve              OIG   media  to readily  distinguish  our work from that of other Commerce entities.
the Department's management
and operations as well as its
delivery of services to the
public.                                IN THIS SECTION
                                   The audits and inspections detailed throughout this semiannual report were complemented by a vigorous
                              investigative agenda, which resulted in numerous judicial and administrative actions. We discuss those activities
                        in the following pages. We also summarize the reporting requirements for this report, as specified by the Inspector
               General Act of 1978, as amended (page 42), and present tables and appendixes listing the statistical details of our work (page 44).




38                                                                                       U.S. Department of Commerce/Office of Inspector General
                                                                                                               Office of Inspector General




            OFFICE OF                                                 INVESTIGATIVE HIGHLIGHTS
            INVESTIGATIONS                                            Following are some of the highlights of our investigative activity
                                                                      over the past 6 months.
            OIG’s Office of Investigations (OI) investigates
            allegations of fraud and other wrongdoing that
impact Commerce programs and operations, including criminal
                                                                      RLF Grant Fund Administrators Indicted
or otherwise prohibited activities engaged in by employees,
contractors, or recipients of financial assistance. Staffed by        On March 24, 2003, special agents from Commerce OIG, the
special agents located in Washington, D.C.; Silver Spring,            Federal Bureau of Investigation, the Small Business
Maryland; Denver, Colorado; and Atlanta, Georgia, OI works            Administration OIG, and Internal Revenue Service Criminal
closely with the Department of Justice and with U.S. Attorney         Investigations arrested four individuals in Massachusetts
Offices throughout the country to prosecute criminal and civil        following their indictment for misuse of EDA and other federal
actions to punish offenders and recover losses suffered by the        grant funds administered by a municipal economic development
government as a result of fraud and misconduct.                       organization. Among other activities, the organization operates
                                                                      an EDA-funded revolving loan fund and a Small Business
Like their counterparts in most OIG offices, our special agents       Administration loan program.          The organization’s two
have full law enforcement powers as special deputy U.S.               administrators and a board member, along with its outside
marshals under a deputation agreement with the Department of          auditor, were charged in an 88-count indictment with conspiracy,
Justice. We also work with the FBI and other federal law              federal program fraud, false statements, and money laundering.
enforcement agencies to investigate matters of mutual interest.       According to the indictment, the four conspired to embezzle
The results of IG investigations of employee misconduct are           organization funds through a variety of schemes, including the
provided to agency officials to support appropriate disciplinary      diversion of funds from the EDA RLF to the administrators and
and administrative actions.                                           their business associates. The indictment also charged that an
                                                                      auditor hired by the fund administrators provided false
During this semiannual reporting period, OIG investigations led       statements to the government to conceal the illegal activities of
to seven arrests, seven convictions, and the filing of indictments,   the fund administrators. (WASHINGTON FIELD OFFICE OF
informations, or criminal complaints against nine individuals. In     INVESTIGATIONS)
addition, there were nine personnel actions taken by the
Department as a result of OI casework.
                                                                      Former Census Employee Enters Guilty
Investigative Statistical Highlights                                  Plea for Accepting a Bribe

  Criminal Investigative Activities                                   In our March 2001 semiannual report (page 79), we reported on
  Arrests                                                      7      the indictment of a former community partnership specialist in
                                                                      the Census Bureau’s Dayton, Ohio, regional office, which arose
  Indictments/informations                                     9
                                                                      out of a joint OIG/FBI investigation: the partnership specialist
  Convictions                                                  7      had misused his position to solicit and receive $1,700 from four
  Personnel actions*                                           9      vendors in exchange for favorable treatment in purchasing
                                                                      promotional items for the 2000 Decennial Census campaign.
  Fines, restitutions, judgments, and other                           Under the terms of a plea agreement, on November 8, 2002, the
  civil and administrative recoveries                   $39,762       defendant was convicted in U.S. District Court for the Southern
*Includes removals, suspensions, reprimands, demotions,               District of Ohio on one count of violating 18 U.S.C. § 201, based
reassignments, and resignations or retirements in lieu of             on his acceptance of an illegal gratuity. Sentencing is scheduled
adverse action.                                                       for spring of 2003.      (WASHINGTON FIELD OFFICE OF
                                                                      INVESTIGATIONS)
  Allegations Processed
  Accepted for investigation                                  62      Commercial Service Foreign National
  Referred to operating units                                 47      Employee Removed
  Evaluated but not accepted for
  investigation or referral                                   45      OIG, the FBI, and Department of State Diplomatic Security
                                                                      Service jointly investigated allegations that a foreign service
  Total                                                      154      national (FSN) employee of the U.S. and Foreign Commercial



March 2003/Semiannual Report to Congress                                                                                            39
Office of Inspector General



Service at a U.S. embassy in Europe had solicited and accepted        NOAA Contract Employee Arrested in
cash payments from an American company as consideration for           Connection with Misuse of Fleet Card
the official act of organizing a promotional activity to market the
company’s services in the country. The investigation disclosed        On March 7, 2003, special agents from the Commerce and
that the employee had solicited and accepted an $1,100 cash           General Services Administration OIGs arrested a contract
payment in violation of embassy procedures for the receipt and        employee at the NOAA facility in Silver Spring, Maryland. The
disbursement of funds. When subsequently interviewed, the             arrest was made after discovery of a scheme through which the
employee admitted accepting the cash, and claimed that he had         contract employee allegedly charged more than $6,000 in
used it to pay another national, not employed by the U.S.             fraudulent purchases to a GSA Fleet Vehicle Fuel Card. As part
government, to participate in promotional activities for the          of the scheme, a number of people obtained gasoline for their
company. As a result of the investigation, the employee was           personal vehicles at the government’s expense. The contract
terminated in December 2002 under Department of State                 employee was charged in the U.S. District Court for the District
procedures for the removal of FSN employees. The grounds              of Maryland with one count of theft of government property.
supporting the termination included indiscretions affecting the       (SILVER SPRING FIELD OFFICE OF INVESTIGATIONS)
conduct of the embassy’s mission, misappropriation and
improper disbursement of funds, misrepresentation or
concealment of material facts, and misuse of official authority.      Former National Weather Service
(WASHINGTON FIELD OFFICE OF INVESTIGATIONS)                           Employee Pleads Guilty to Misusing
                                                                      a Government Purchase Card

Former ITA Employee Arrested for Misuse                               In February 2003, a former NOAA employee pleaded guilty in
of Government Purchase Card                                           U.S. District Court for the Eastern District of Virginia to one
                                                                      count of theft of government property. The plea followed a joint
In February 2003 a former ITA employee was arrested and               OIG/FBI investigation into allegations that the employee, while
charged in the Superior Court of the District of Columbia with        an administrative assistant with the National Weather Service,
credit card fraud. The charge was based on OIG investigative          had misused a government purchase card to acquire items for
findings, which documented that the employee had used her             personal use. Records obtained in the investigation showed a
government purchase card to acquire goods and services for            long-term pattern of government credit card abuse, resulting in
personal use worth more than $2,000. On March 17, 2003, the           the unauthorized purchase of more than $70,000 worth of
former employee entered into a pretrial diversion agreement, by       personal items. The employee has resigned from government
which she agreed to perform 40 hours of community service and         service.    Sentencing is scheduled for spring of 2003.
make restitution to the government. The employee resigned from        (WASHINGTON FIELD OFFICE OF INVESTIGATIONS)
the Department of Commerce in January 2003. (WASHINGTON
FIELD OFFICE OF INVESTIGATIONS)
                                                                      Fraudulent Use of Government Purchase
                                                                      Card Ends in Theft Conviction
Former NOAA Employee Convicted
on Wire Fraud Charges                                                 On January 29, 2003, a former USPTO automation clerk pleaded
                                                                      guilty in U.S. District Court for the Eastern District of Virginia to
In our September 2002 semiannual report (page 37), we reported        a one-count criminal information charging her with theft of
the arrest of a former finance accounting technician at NOAA’s        government property. The plea was the result of an OIG
Mountain Administrative Support Center following her                  investigation, which disclosed that the former employee had used
indictment in the District of Colorado on six counts of wire fraud.   her supervisor’s government purchase card number to make
The charges were based on an OIG investigation, in which it was       unauthorized purchases totaling more than $2,000 for her
disclosed that the individual had manipulated the accounting          personal benefit. Sentencing is scheduled for spring of 2003.
system to make it appear that approximately $19,000 of                (SILVER SPRING FIELD OFFICE OF INVESTIGATIONS)
legitimate agency expenses were being paid, when in reality, the
payments were made to cover her personal credit card charges.
The defendant pleaded guilty to all six counts in October 2002.
On February 21, 2003, she was sentenced to 4 years’ probation
and ordered to make full restitution to the government.
(DENVER FIELD OFFICE OF INVESTIGATIONS)




40                                                                                U.S. Department of Commerce/Office of Inspector General
                                                                                                               Office of Inspector General



Falsified Time and Attendance Records                                 ADDITIONAL INVESTIGATIVE
Result in Theft Conviction                                            ACTIVITIES
In the last issue (September 2002, page 48) we reported the filing    During the past 6 months OI has conducted outreach activities
of a criminal complaint against a former USPTO employee based         within Commerce that focused on informing Department
on the results of an OIG investigative disclosure that, in her role   personnel about our investigative role and educating employees
as office timekeeper, she had inflated her reported hours of work     to recognize and report suspected fraudulent activity related to
over a 7-month period to obtain approximately $7,000 in salary        their programs. OI is also planning to conduct proactive
payments to which she was not entitled. On November 18, 2002,         investigative activities to identify fraud and program
the defendant was convicted in U.S. District Court for the Eastern    weaknesses. This approach is consistent with our statutory
District of Virginia on one count of theft of government property.    responsibility to detect and prevent fraud and promotes
On February 11, 2003, she was sentenced to 1 year supervised          interaction with the Department’s operating components. In
probation, conditioned on 20 days’ incarceration, and 4 years’        addition, OI is continuing to partner with the various
unsupervised probation. In addition, the court ordered her to pay     operating units in Commerce and OIG to ferret out fraud and
restitution to the government in the amount of $5,930. (SILVER        address systemic problems that impede the efficacy of
SPRING FIELD OFFICE OF INVESTIGATIONS)                                departmental programs.

                                                                      In addition to conducting criminal, civil, and administrative
OCIO Supervisor Reminded of Policy                                    investigations that directly impact the Department of Commerce,
on Referrals to OIG                                                   OIG special agents have assisted other law enforcement agencies
                                                                      in a variety of ways this year, as highlighted below.
We investigated allegations that a supervisor in the Office of the
Chief Information Officer (OCIO) had directed her subordinates
not to contact OIG regarding herself or another supervisor, and
                                                                      OIG Participates in Sniper Investigation
had attempted to learn the source of an anonymous allegation
previously made to OIG. During our investigation it was               During the fall of 2002 the Washington, D.C., metropolitan
disclosed that the supervisor had made comments that could be         area was plagued by what appeared to be random shootings by
interpreted by OCIO employees as threats of retaliation for           a serial killer. In response to the killings, the FBI established
reporting matters to OIG, in violation of statutory and               a Sniper Tip-Line that received, documented, and promptly
administrative prohibitions. Based on the results of the              forwarded leads and other intelligence to the appropriate
investigation, the supervisor was reminded that employees are         investigating agencies. The Tip-Line enabled the public to
not to restrict other employees’ communications with OIG.             quickly report information that would lead to the identification
(WASHINGTON FIELD OFFICE OF INVESTIGATIONS)                           and apprehension of those responsible for the shootings.
                                                                      Commerce OIG and other federal, state, and local law
                                                                      enforcement personnel staffed the FBI Sniper Tip-Line in
Misrepresentation of Status as OIG                                    support of what has been described as the most intensive
Employee Leads to Conviction                                          multiregional investigation ever undertaken in the
                                                                      metropolitan area.
On January 6, 2003, a former OIG employee, now working in
private industry, pleaded guilty to a one-count misdemeanor
charge of violating 18 U.S.C. § 712 (misuse of names, words,          Carjacking Suspect Apprehended
emblems, or insignia) after our investigation confirmed that he       by OIG and FBI Agents
had falsely represented himself as an OIG employee in telephone
conversations and e-mail in an attempt to obtain proprietary          In December 2002 local law enforcement authorities notified OIG
information from a business competitor. Sentencing is scheduled       and FBI agents working in Florida that a suspect in a recent
for spring of 2003 in U.S. District Court for the District of         carjacking had been last seen in their vicinity. While driving in
Columbia. (SILVER SPRING FIELD OFFICE OF                              the identified area, the agents observed an individual fitting the
INVESTIGATIONS)                                                       suspect’s description and apprehended and detained the individual




March 2003/Semiannual Report to Congress                                                                                            41
Office of Inspector General



until local law enforcement authorities arrived to take custody.    investigative techniques, the OIG agent assigned to the case
The local authorities reported that the suspect was a known gang    located the suspect and advised the Atlanta Police Department of
member and had several outstanding felony warrants.                 the suspect’s whereabouts. The police arrested the individual on
                                                                    the robbery warrant without incident.

Robbery Suspect Arrested                                            OIG is also required by section 804(b) of the Federal Financial
                                                                    Management Improvement Act of 1996 to report instances in
An OIG investigation of an individual suspected of theft            which and reasons why an agency has not met the dates of its
disclosed that the individual had an outstanding robbery warrant    remediation plan. We discuss this matter in this issue as part of
in Georgia. Using a variety of traditional and sophisticated        our financial statements audit reporting.


REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.

  Section                                Topic                                                                                Page
  4(a)(2)                                Review of Legislation and Regulations                                                  42
  5(a)(1)                                Significant Problems, Abuses, and Deficiencies                                      12-37
  5(a)(2)                                Significant Recommendations for Corrective Action                                   12-37
  5(a)(3)                                Prior Significant Recommendations Unimplemented                                        42
  5(a)4                                  Matters Referred to Prosecutive Authorities                                         12-37
  5(a)(5) and 6(b)(2)                    Information or Assistance Refused                                                      43
  5(a)(6)                                Listing of Audit Reports                                                            44-50
  5(a)(7)                                Summary of Significant Reports                                                      12-37
  5(a)(8)                                Audit Reports—Questioned Costs                                                         45
  5(a)(9)                                Audit Reports—Funds to Be Put to Better Use                                            46
  5(a)(10)                               Prior Audit Reports Unresolved                                                         43
  5(a)(11)                               Significant Revised Management Decisions                                               43
  5(a)(12)                               Significant Management Decisions with which OIG Disagreed                              43



4(a)(2): REVIEW OF LEGISLATION                                      SECTION 5(a)(3): PRIOR
AND REGULATIONS                                                     SIGNIFICANT
                                                                    RECOMMENDATIONS
This section requires the inspector general of each agency to       UNIMPLEMENTED
review existing and proposed legislation and regulations
relating to that agency’s programs and operations. Based on this    This section requires identification of each significant
review, the inspector general is required to make                   recommendation described in previous semiannual reports for
recommendations in the semiannual report concerning the             which corrective action has not been completed. Section 5(b)
impact of such legislation or regulations on the economy and        requires that the Secretary transmit to Congress statistical
efficiency of the management of programs and operations             tables showing the number and value of audit reports for which
administered or financed by the agency or on the prevention         no final action has been taken, plus an explanation of the
and detection of fraud and abuse in those programs and              reasons why recommended action has not occurred, except
operations. Comments concerning legislative and regulatory          when the management decision was made within the
initiatives affecting Commerce programs are discussed, as           preceding year.
appropriate, in relevant sections of the report.



42                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                            Office of Inspector General



To include a list of all significant unimplemented                  ATL-09999-2-1114) questioned a total of $616,611 in costs
recommendations in this report would be duplicative, costly,        charged to a NIST cooperative agreement. The costs were
unwieldy, and of limited value to Congress. Any list would have     questioned because the state did not report actual expenditures
meaning only if it explained whether adequate progress is being     on federal reports and, as a result, received excess federal
made to implement each agreed-upon corrective action.               funds. The report also contained some nonfinancial findings.
Management updates the Department’s Audit Tracking System           NIST and OIG are actively working to resolve this audit as
annually, based on status reports due from the bureaus in           expeditiously as possible.
mid-October. The last update was as of September 30, 2002.
However, additional information on the status of any
audit recommendations can be obtained through OIG’s Office
of Audits.                                                          SECTION 5(a)(11):
                                                                    SIGNIFICANT REVISED
                                                                    MANAGEMENT DECISIONS
SECTIONS 5(a)(5) AND 6(b)(2):
INFORMATION OR                                                      This section requires an explanation of the reasons for any
ASSISTANCE REFUSED                                                  significant revision to a management decision made during the
                                                                    reporting period. Department Administrative Order 213-5, Audit
These sections require a summary of each report to the Secretary    Resolution and Follow-up, provides procedures for revising a
when access, information, or assistance has been unreasonably       management decision. For performance audits, OIG must be
refused or not provided. There were no such instances during this   consulted and must approve in advance any modification to an
semiannual period and no reports to the Secretary.                  audit action plan. For financial assistance audits, OIG must
                                                                    concur with any decision that would change the audit resolution
                                                                    proposal in response to an appeal by the recipient. The decisions
SECTION 5(a)(10): PRIOR AUDIT                                       issued on the eight appeals of audit-related debts were finalized
REPORTS UNRESOLVED                                                  with the full participation and concurrence of OIG.

This section requires a summary of each audit report issued
before the beginning of the reporting period for which no           SECTION 5(a)(12): SIGNIFICANT
management decision has been made by the end of the reporting       MANAGEMENT DECISIONS WITH
period (including the date and title of each such report), an       WHICH OIG DISAGREED
explanation of why a decision has not been made, and a statement
concerning the desired timetable for delivering a decision on       This section requires information concerning any significant
each such report.                                                   management decision with which the inspector general disagrees.
                                                                    Department Administrative Order 213-5 provides procedures for
As of March 31, 2003, the following single audit report was         elevating unresolved audit recommendations to higher levels of
unresolved for more than 6 months:                                  Department and OIG management, including their consideration
                                                                    by an Audit Resolution Council. During this period no audit
                                                                    issues were referred to the council.
Questioned Costs for State of Nebraska
Total $616,611

An OIG review of the FY 2001 single audit report for the state
of Nebraska (listed in our September 2002 report, page 69,




March 2003/Semiannual Report to Congress                                                                                         43
Office of Inspector General




TABLES AND STATISTICS

  TABLES                                                                                                                                                                          PAGE
  1. Audit Resolution Follow-Up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .44
  2. Audit and Inspection Statistical Highlights for this Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45
  3. Audits with Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45
  4. Audits with Recommendations that Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .46
  APPENDIXES
  A. Report Types this Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47
        A-1. Performance Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47
        A-2. Financial-Related Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48
        A-3. Financial Statements Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48
        A-4. Quality Control Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49
        A-5. Inspections and Systems Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49
  B. Processed Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50
        B-1. Processed Financial-Related Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50




AUDIT RESOLUTION AND                                                                            Table 1. Audit Resolution Follow-Up
FOLLOW-UP                                                                                           Report Category                      Modifications                       Appeals

The Inspector General Act Amendments of 1988 require us to                                          Actions pending
present in this report those audits issued before the beginning of                                  (October 1, 2002)                             0                                8
the reporting period (October 1, 2002) for which no management                                      Submissions                                   0                              13
decision had been made by the end of the period (March 31,
2003). One NIST audit report remains unresolved for this                                            Decisions                                     0                                8
reporting period (see page 43).
                                                                                                    Actions pending
Department Administrative Order 213-5, Audit Resolution and                                         (March 31, 2003)                              0                              13
Follow-up, provides procedures for management to request a
modification to an approved audit action plan or for a financial
assistance recipient to appeal an audit resolution determination.
The following table summarizes modification and appeal activity
during the reporting period.




44                                                                                                               U.S. Department of Commerce/Office of Inspector General
                                                                                                               Office of Inspector General



Table 2. Audit and Inspection Statistical                             documentation; or (3) a finding that an expenditure of funds for
Highlights for this Period                                            the intended purpose is unnecessary or unreasonable.

    Questioned costs                                 $9,246,105       Unsupported cost: a cost that, at the time of the audit, is not
                                                                      supported by adequate documentation. Questioned costs include
    Value of audit recommendations that                               unsupported costs.
    funds be put to better use                      $14,454,402
    Value of audit recommendations agreed                             Recommendation that funds be put to better use: an OIG
    to by management                                $15,827,347       recommendation that funds could be used more efficiently if
                                                                      Commerce management took action to implement and complete
    Value of inspection recommendations that                          the recommendation, including (1) reductions in outlays; (2)
    funds be put to better use                        $323,366        deobligation of funds from programs or operations; (3)
                                                                      withdrawal of interest subsidy costs on loans or loan guarantees,
                                                                      insurance, or bonds; (4) costs not incurred by implementing
DEFINITIONS OF TERMS                                                  recommended improvements related to Commerce, a contractor,
USED IN THE TABLES                                                    or a grantee; (5) avoidance of unnecessary expenditures
                                                                      identified in preaward reviews of contracts or grant agreements;
Questioned cost: a cost questioned by OIG because of (1) an           or (6) any other savings specifically identified.
alleged violation of a provision of a law, regulation, contract,
grant, cooperative agreement, or other agreement or document          Management decision: management’s evaluation of the findings
governing the expenditure of funds; (2) a finding that, at the time   and recommendations included in the audit report and the issuance
of the audit, such cost is not supported by adequate                  of a final decision by management concerning its response.


Table 3. Audits with Questioned Costs

    Report Category                                                          Number       Questioned Costs       Unsupported Costs
    A. Reports for which no management decision had been made by
       the beginning of the reporting period                                   30            $ 10,742,091             $ 4,742,041
    B. Reports issued during the reporting period                              19               9,246,105               2,202,809
          Total reports (A+B) requiring a management decision
          during the reporting period1                                         49              19,988,196               6,944,850
    C. Reports for which a management decision was made during
       the reporting period2                                                   33              11,523,494               5,271,005
          i. Value of disallowed costs                                                          7,401,692               2,838,929
          ii. Value of costs not disallowed                                                     4,668,417               2,455,201
    D. Reports for which no management decision had been made by
       the end of the reporting period                                         16               8,464,702               1,673,845


1
  Five audit reports included in this table are also included among reports with recommendations that funds be put to better use (see
table 2). However, the dollar amounts do not overlap.
2
 In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original
recommendations.




March 2003/Semiannual Report to Congress                                                                                            45
Office of Inspector General



Table 4. Audits with Recommendations that Funds Be Put to Better Use

    Report Category                                                                          Number                            Value
    A. Reports for which no management decision had been made by the
       beginning of the reporting period                                                        10                         $ 9,904,829
    B. Reports issued during the reporting period                                                9                           14,454,402
          Total reports (A+B) requiring a management decision during
          the reporting period1                                                                 19                           24,359,231
    C. Reports for which a management decision was made during the
       reporting period2                                                                        10                            9,904,829
          i. Value of recommendations agreed to by management                                                                 8,425,655
          ii. Value of recommendations not agreed to by management                                                            1,567,723
    D. Reports for which no management decision had been made by the
       end of the reporting period                                                               9                           14,454,402


1
  Five audit reports included in this table are also included in the reports with questioned cost (see table 1). However, the dollar
amounts do not overlap.
2
 In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original
recommendations.




46                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                             Office of Inspector General



Appendix A. Report Types this Period

                                  Number of      Appendix
 Type                              Reports       Number
 Performance audits                        6        A-1
 Financial-related audits              18           A-2
 Financial statements audits               6        A-3
 Quality control reviews                   7        A-4
 Inspections and
 systems evaluations                       5        A-5
 Total                                 42



Appendix A-1. Performance Audits

                                                                                                 Funds to Be Put
 Report Title                                                Report Number     Date Issued        to Better Use
 International Trade Administration
 International Trade Administration's Market Access and
 Compliance Unit Successfully Recruited for Trade
 Compliance Positions                                       ESD-15499-3-0001     3/31/03                 —
 National Oceanic and Atmospheric Administration
 Improvements Needed in the Reporting of Performance
 Measures Related to Promoting Safe Navigation and
 Sustaining Healthy Coasts                                  FSD-14998-3-0001     2/28/03                 —
 NOAA's "Corporate-Costs" Process Needs Improvement         STD-14427-3-0001     3/10/03                 —
 Travel Card Program at National Weather Service
 Headquarters Needs Additional Management Controls          BTD-14972-3-0001     3/18/03                 —
 National Technical Information Service
 National Technical Information Service's
 New Business Model                                         FSD-15100-3-0001    12/31/02                 —
 Office of the Secretary
 Office of the Secretary's Oversight of Its Purchase Card
 Program Needs Heightened Monitoring and Enforcement        BTD-14971-3-0001     3/28/03                 —




March 2003/Semiannual Report to Congress                                                                          47
Office of Inspector General



Appendix A-2. Financial-Related Audits

                                                                               Federal         Federal           Funds to
                                                                               Amount          Amount             Be Put
                                                                     Date     Questioned     Unsupported         to Better
  Auditee                                          Report Number    Issued      Costs           Costs               Use
  Economic Development Administration
  Community Investment Corporation
  of Decatur, Inc., IL                           DEN-15184-3-0001   2/6/03     $ 44,536        $    44,536    $ 1,689,393
  City and County of San Francisco, CA           DEN-15183-3-0001   2/7/03                                       2,027,326
  Northwest Regional Planning Commission, WI     DEN-15308-3-0001   3/7/03                                         260,236
  South Carolina Jobs-Economic
  Development Authority                          ATL-14915-3-0001   3/25/03                                        606,790
  City of Baldwin Park, CA                       DEN-15181-3-0001   3/28/03                                        708,711
  Alaska Village Initiatives                     DEN-15182-3-0001   3/28/03                                        324,587
  Anacostia Economic Development
  Corporation, DC                                ATL-15124-3-0001   3/31/03                                        601,618
  Empire State Development Corporation, NY       ATL-15390-3-0001   3/31/03      145,583                         7,929,294
  National Institute of Standards and Technology
  Allegheny-Singer Research Institute, PA        ATL-13993-3-0002   3/27/03      832,145           832,145
  W. Brandt Goldsworthy & Associates, Inc., CA   ATL-15922-3-0001   3/27/03                                        306,447
  KLA-Tencor Corporation, CA                     DEN-14219-3-0001   3/31/03    5,710,499            13,359




Appendix A-3. Financial Statements Audits

  Report Title                                                      Report Number                            Date Issued
  National Technical Information Service
  Improvements Needed in the General Controls Associated with
  NTIS’ Financial Management Systems                                FSD-15212-3-0001                           12/30/02
  Financial Statements Fiscal Year 2002                             FSD-15212-3-0002                             1/9/03
  Office of the Secretary
  Department of Commerce’s Fiscal Year 2002 Consolidated
  Financial Statements                                              FSD-15214-3-0002                            1/16/03
  Review of IT Controls to Support the FY 2002 Consolidated
  Financial Statement Audit                                         FSD-15214-3-0001                            1/21/03
  United States Patent and Trademark Office
  Improvements Needed in the General Controls Associated
  with USPTO’s Financial Management Systems                         FSD-15213-3-0001                           12/30/02
  Financial Statements Fiscal Year 2002                             FSD-15213-3-0002                             1/9/03




48                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                          Office of Inspector General



Appendix A-4. Quality Control Reviews

  Report Title                                                                  Report Number                       Date Issued
  Economic Development Administration
  Hanigan Bjorkman Ecklund LLP, for audit of Nebraska
  Economic Development Corporation for the years ended
  September 30, 2001 and 2000                                                  DEN-I5506-3-0001                        3/12/03
  McGladrey & Pullen, LLP, for audit of Black Hills
  Community Economic Development, Inc., for years
  ended June 30, 2001 and 2000*                                                DEN-15507-3-0001                        3/12/03
  Pattillo, Brown & Hill, LLP, for audit of Central Texas
  Economic Development District for years ended
  December 31, 2001 and 2000                                                   DEN-15508-3-0001                        3/14/03
  Pattillo, Brown & Hill, LLP, for audit of Ark-Tex
  Council of Governments for the year ended
  September 30, 2001                                                           DEN-15508-3-0002                        3/14/03
  Maher Duessel, CPAs for the single audit of the Regional
  Development Funding Corporation for fiscal year ended
  September 30, 2001                                                           ATL -15546-3-0001                       3/24/03
  National Technical Information Service
  Kostin, Ruffkess & Company, LLC, for the single audit
  of Connecticut Technology Associates, Inc., for year ended
  June 30, 2000                                                                DEN-15501-3-0001                        3/26/03
  KPMG, LLP, for single audit of Minnesota Technology, Inc.,
  for fiscal year ended June 30, 2001                                          DEN-15500-3-0001                        3/27/03

* Black Hills Community Economic Development, Inc., was funded by both EDA ($1,024,106) and NTIA ($505,061) for years
ended June 30, 2001 and 2000. However, this report is listed under EDA because all the findings were related to EDA funding.

Appendix A-5. Inspections and Systems Evaluations

  Report Title                                                            Report Number                           Date Issued
  Bureau of Industry and Security
  Improvements Are Needed to Better Enforce Dual-Use
  Export Control Laws                                                       IPE-15155                                 3/31/03
  Stronger Management Controls Are Needed for BIS’
  Export Enforcement Firearms Program                                       IPE-15155-1                               3/14/03
  Memo on CIA-Export Enforcement Issues                                     IPE-15155-3                               3/17/03
  International Trade Administration
  The Commercial Service Needs to Improve Management
  of its Operations in Turkey                                               IPE-15370                                 3/14/03
  National Oceanic and Atmospheric Administration
  NMFS Should Take a Number of Actions to Strengthen
  Fisheries Enforcement                                                     IPE-15154                                 3/31/03



March 2003/Semiannual Report to Congress                                                                                        49
Office of Inspector General



Appendix B. Processed Reports

The Office of Inspector General reviewed and accepted 142 financial-related audit reports prepared by independent public accountants
and local, state, and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better
use, and/or nonfinancial recommendations are listed in Appendix B-1.

  Agency                                                                                                                                                                              Audits
  Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .62
  Minority Business Development Agency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
  National Institute of Standards and Technology* . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .51*
  National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6
  Office of the Secretary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
  Multiagency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .18
  Agency not identified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
  Total . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .142
*Includes 47 ATP program-specific audits.


Appendix B-1. Processed Financial-Related Audits

                                                                                                                                                 Federal                     Federal
                                                                                                                                                 Amount                      Amount
                                                                                                                             Date               Questioned                 Unsupported
  Auditee                                                                           Report Number                           Issued                Costs                       Costs
  Economic Development Administration
  City of Swainsboro, GA                                                          ATL-09999-3-1195                        11/21/02               $ 105,791
  Skagit Council of Governments, WA                                               ATL-09999-3-1193                          1/31/03                   674,857
  Northwest Regional Planning Commission, WI                                      ATL-09999-3-1273                          1/31/03                     13,320
  The Quileute Tribe, WA                                                          ATL-09999-3-1374                          3/31/03                     26,267                     26,267
  National Institute of Standards and Technology
  eCollege.com, CO                                                                ATL-09999-3-1159                        10/24/02                 1,145,575                   1,145,575
  Engelhard Corporation, NJ                                                      DEN-09999-3-0782                         10/30/02                    113,051
  Apex Medical, Inc., MA                                                         DEN-09999-3-1067                         11/20/02                    105,321
  General Motors Corporation, Ml                                                  ATL-09999-3-0553                        11/21/02
  General Motors Corporation, Ml                                                  ATL-09999-3-0554                        11/21/02
  lnfigen, Inc., WI                                                               ATL-09999-3-1206                        11/21/02                      33,597
  Imation, Corp., MN                                                             DEN-09999-3-1018                         12/19/02                    149,612                    102,312
  Imation, Corp., MN                                                             DEN-09999-3-1019                         12/19/02
  AviGenics, Inc., GA                                                            DEN-09999-3-1075                           2/19/03                       8,596
  UOP LLC, IL                                                                    DEN-09999-3-0768                           3/12/03                     14,616
  Arkansas Science and Technology Authority                                       ATL-09999-3-1175                          3/31/03                     56,662                     38,615
  St. Jude Medical, Inc., MN                                                     DEN-09999-3-0766                           3/31/03                     25,627
  Office of the Secretary
  Minority Access, Inc., MD                                                       ATL-09999-3-1383                          3/31/03                     24,348
  Minority Access, Inc., MD                                                       ATL-09999-3-1384                          3/31/03                     16,152



50                                                                                                                   U.S. Department of Commerce/Office of Inspector General
ACRONYMS USED IN THIS REPORT

ATP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technology Program
BIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Industry and Security (formerly Bureau of Export Administration)
CAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commerce Administrative Management System
CFO/ASA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Financial Officer and Assistant Secretary for Administration
COOP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .continuity of operations plan
COTR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .contracting officers’ technical representative
CPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .certified public accountant
CWIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .construction work in progress
DOC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Commerce
EAR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Export Administration Regulations
EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Economic Development Administration
EEZ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Exclusive Economic Zone
ESA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Economics and Statistics Administration
FAR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Acquisition Regulation
FFMIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Financial Management Improvement Act
FISCAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Information Systems Controls Audit Manual
FISMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Information Security Management Act
FMC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Fisheries Management Council
FSN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .foreign service national
FTR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Travel Regulation
GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Accounting Office
GISRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Information Security Reform Act
GPRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Performance and Results Act
GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration
HCO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Head of Contracting Office
HSPD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Homeland Security Presidential Directive
IA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Import Administration
ICASS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .International Cooperative Administrative Support Services
IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .inspector general
IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .information technology
ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .International Trade Administration
MAC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Market Access and Compliance
NAPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Academy of Public Administration



March 2003/Semiannual Report to Congress                                                                                                                                                 51
Acronyms Used in This Report



NCIC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Crime Information Center
NDAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Defense Authorization Act
NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Institute of Standards and Technology
NMFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Marine Fisheries Service
NOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Oceanic and Atmospheric Administration
NTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Telecommunications and Information Administration
NTIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Technical Information Service
NWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Weather Service
OAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Acquisition Management
OCIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Chief Information Officer
OEE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Export Enforcement
OFA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Finance and Administration
OI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Investigations
OIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of International Operations
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General
OLE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Law Enforcement
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget
O/S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary
QCR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .quality control review
RLF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .revolving loan fund
SAC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .special agent in charge
US&FCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .U.S. and Foreign Commercial Service
USPTO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .U.S. Patent and Trademark Office
VMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vessel monitoring system




52                                                                                                               U.S. Department of Commerce/Office of Inspector General
Types of OIG Audits


F
      or the federal government, OIGs must ascertain program viability from a variety of perspectives. The various kinds of audits,
      evaluations, inspections, and investigations at our disposal afford the IG’s office a comprehensive view of Commerce programs
      and operations. Thus we are able to provide program managers with reviews and recommendations that are both objective and
inclusive and can be used to aid them in ensuring the most efficient and effective use of taxpayer dollars.


AUDITS
Performance Audits address the efficiency, effectiveness, and economy of the Department’s programs, activities, and information
technology systems. They may check a unit’s compliance with laws and regulations, and evaluate its success in achieving
program objectives.

Financial-Related Audits review the Department’s contracts, grants, cooperative agreements, loans, and loan guarantees. They assess
compliance with laws, regulations, and award terms; adequacy of accounting systems and internal controls; allowance of costs; and the
degree to which projects achieved the intended results.

Financial Statements Audits determine whether (1) a reporting entity’s financial statements are presented fairly and in accordance
with generally accepted accounting principles; (2)the entity has an internal control structure that provides reasonable assurance of
achieving the control objectives set forth by OMB; and (3) the entity complied with laws and regulations that could have a direct and
material effect on the financial statements, the Federal Financial Management Improvement Act, and other laws and regulations.


INSPECTIONS
Inspections are reviews of an activity, unit, or office, or a contractor or other nonfederal entity that receives funds from the Department.
They focus on an organization, not a whole program, and are often designed to give agency managers timely and useful information
about operations, including current and foreseeable problems.


EVALUATIONS
Program Evaluations are in-depth reviews of specific management issues, policies, or programs.

Systems Evaluations review system development, acquisitions, operations, and policy, focusing on computer systems and
other technologies.


INVESTIGATIONS
Criminal/Civil/Administrative Investigations are conducted based on alleged or suspected wrongdoing by Department employees,
contractors, recipients of financial assistance, and others responsible for handling federal resources. Investigations that expose violation
of Department rules and regulations or acts of fraud committed against the U.S. government can result in administrative sanctions
and/or criminal or civil prosecution.




March 2003/Semiannual Report to Congress                                                                                               53
                       In Memoriam

This semiannual report is dedicated to the memory of Special Agent
Robert A. Brent. Bob came to the Department of Commerce Office of
Inspector General in 1987 from the General Services Administration, and
in his 16 years with OIG he proved himself to be a loyal, dedicated, and
thoroughly dependable employee and friend. As a special agent for OIG,
he performed complex investigations in virtually all Department of
Commerce bureaus. His work took him to locations all across the
country—from Alaska to Montana to Louisiana. After the tragic events
on September 11th, Bob spent several weeks in New York City
investigating leads and assisting with evidence recovery at ground zero,
the World Trade Center. In March 2003 we recognized Bob with the
highest award the Inspector General can bestow—a Bronze Medal—for
his successful completion of an embezzlement investigation that
uncovered systemic vulnerabilities in the Department's financial controls
and resulted in the conviction of a former Commerce employee and
restitution of more than $30,000 to the federal government.
